<html>
<title> - S. 710, THE REAUTHORIZATION OF THE NATIVE AMERICAN HOUSING ASSISTANCE AND SELF- DETERMINATION ACT OF 2015 (NAHASDA)</title>
<body><pre>[Senate Hearing 114-60]
[From the U.S. Government Publishing Office]


                                                         S. Hrg. 114-60
 
                   S. 710, THE REAUTHORIZATION OF THE NATIVE 
                     AMERICAN HOUSING ASSISTANCE AND SELF-
                     DETERMINATION ACT OF 2015 (NAHASDA)

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 18, 2015

                               __________

         Printed for the use of the Committee on Indian Affairs
         
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                        U.S. GOVERNMENT PUBLISHING OFFICE
95-957 PDF                  WASHINGTON : 2015                        


 _______________________________________________________________________________________                     
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5433243b14372127203c3138247a373b397a">[email&#160;protected]</a>  
                    
                      
                      
                      
                      
                      
                      COMMITTEE ON INDIAN AFFAIRS

                    JOHN BARRASSO, Wyoming, Chairman
                   JON TESTER, Montana, Vice Chairman
JOHN McCAIN, Arizona                 MARIA CANTWELL, Washington
LISA MURKOWSKI, Alaska               TOM UDALL, New Mexico
JOHN HOEVEN, North Dakota            AL FRANKEN, Minnesota
JAMES LANKFORD, Oklahoma             BRIAN SCHATZ, Hawaii
STEVE DAINES, Montana                HEIDI HEITKAMP, North Dakota
MIKE CRAPO, Idaho
JERRY MORAN, Kansas
     T. Michael Andrews, Majority Staff Director and Chief Counsel
       Anthony Walters, Minority Staff Director and Chief Counsel
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 18, 2015...................................     1
Statement of Senator Barrasso....................................     1
Statement of Senator Franken.....................................     3
Statement of Senator Heitkamp....................................     4
Statement of Senator Lankford....................................     3
Statement of Senator Tester......................................     2

                               Witnesses

Cooper, Gary, Chairman, Legislative Committee, National American 
  Indian Housing Council.........................................     9
    Prepared statement...........................................    11
Diver, Hon. Karen, Chairwoman, Fond du Lac Band of Lake Superior 
  Chippewa Indians...............................................     4
    Prepared statement...........................................     6
Sossamon, Russell, Executive Director, Choctaw Nation of Oklahoma 
  Housing Authority..............................................    14
    Prepared statement...........................................    15

                                Appendix

Encino, Nadine, Senior Operations Specialist, Laguna Housing 
  Development and Management Enterprise, prepared statement......    37
Ramirez, Lourdes Castro, Principal Deputy Assistant Secretary for 
  Public and Indian Housing, U.S. Department of Housing and Urban 
  Development, prepared statement................................    35


                  S. 710, THE REAUTHORIZATION OF THE 
 NATIVE AMERICAN HOUSING ASSISTANCE AND SELF-DETERMINATION ACT OF 2015 
                               (NAHASDA)

                              ----------                              


                       WEDNESDAY, MARCH 18, 2015


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:50 p.m. in room 
628, Dirksen Senate Office Building, Hon. John Barrasso, 
Chairman of the Committee, presiding.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
                   U.S. SENATOR FROM WYOMING

    The Chairman. Good afternoon. I call this hearing to order.
    Today, the Committee will examine S. 710, the Native 
American Housing Assistance and Self-Determination 
Reauthorization Act of 2015 or NAHASDA.
    I introduced S. 710 on March 11. The bill is similar to 
past bills introduced since NAHASDA's reauthorization ended in 
2013. Reauthorization of NAHASDA has been an important priority 
for Indian Country.
    However, Indian Country has waited too long for 
reauthorization. For that reason, I am looking forward to the 
collaboration of both the House and the Senate that will make 
reauthorization a reality.
    I especially want to thank Senator Tester for his 
leadership on the important issue of Indian housing. Because of 
his leadership and the efforts of our colleagues, we are closer 
to making reauthorization a reality.
    The United States is responsible for improving Indian 
people's housing conditions. Improved housing conditions 
empower tribes to take greater responsibility for their own 
economic condition.
    In 1996, NAHASDA consolidated Federal Indian housing 
programs into one law. NAHASDA also furthered principles of 
self-governance through tribal administration of Federal Indian 
housing programs. Although NAHASDA has empowered tribes to 
tackle their own housing needs, there is still a need for 
housing in Indian Country.
    I want to welcome our panel of tribal officials and 
advocates. They represent an in-depth understanding of Indian 
Country's housing needs and how NAHASDA can address these 
needs.
    Chairman Karen Diver is here from the Fond du Lac Band of 
Lake Superior Chippewa Indians. Mr. Gary Cooper is here, a 
Board member and Chairman of the Legislative Committee of the 
NAIHC. Mr. Russell Sossamon is the Executive Director of the 
Housing Authority of the Choctaw Nation of Oklahoma.
    I want to thank all of you for joining us.
    Senator Tester, would you like to make an opening 
statement?

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. I would, Mr. Chairman.
    I want to thank you again for holding this hearing also and 
for putting together a bill that reintroduced NAHASDA.
    I want to thank the witnesses for joining us today, 
particularly Chairwoman Karen Diver, who welcomed me to her 
tribal homelands last October when I was touring Indian Country 
around the Country, around the United States, touring the Fond 
du Lac Reservation. I was able to see firsthand the housing 
conditions facing Chairwoman Diver's community, as well as some 
of the innovations that are taking place on the housing front. 
I look forward to hearing before this Committee what you are 
doing.
    Housing is vital to Indian communities across the United 
States. When we discuss the state of Indian housing, we must 
describe it in the term of crisis. A great many things impact 
the daily lives of Native Americans, but none so more, none 
more so, than housing.
    As all members of this Committee know, the statistics 
concerning housing conditions in Indian Country are staggering. 
Homes that do exist are in disrepair and we are nowhere close 
to meeting the immense need for housing throughout Indian 
Country.
    I am sure all of our tribal housing authorities could speak 
at length of the weight that persists and the demand in their 
communities is not getting any smaller.
    We are also seeing the trend that tribes and tribal housing 
authorities are not constructing new homes but repairing older, 
worn out housing stock. As the housing stock grows older, it is 
more costly to maintain and rehab these homes, so we must grow 
this program that has seen level funding since its inception in 
1996, nearly 20 years.
    Finally, I think we need to work with all of our Federal 
partners and the Administration to make sure that we are 
improving the tools and resources to improve the housing 
conditions in our Indian communities.
    These agencies can work together to remove duplicative and 
cumbersome Federal requirements that exists throughout the 
Federal system. They can do more to help tribes and tribal 
housing authorities access existing programs and conduct more 
outreach and consultation to Indian Country.
    Again, I want to thank you, Mr. Chairman, for putting 
together this proposal. I know the tribes in my home State are 
carefully reviewing it. We have heard some initial concerns 
about any changes to Section 703 of NAHASDA in relation to 
training and technical assistance. We will continue to look 
closely at that to make it work.
    In addition, this bill removes the maximum rent 
requirements for housing authorities. I strongly believe in 
self-determination. I understand the income verification 
process is timely and costly. The removal of the 30 percent 
rule, however, will raise some concerns as it decreases tenant 
protections in regards to rental costs.
    I look forward to working with you, Mr. Chairman, and your 
staff to address these concerns as we move this bill through 
the legislative process.
    Finally, I would say I think we have an opportunity here 
when it comes to housing to build some great partnerships with 
the Federal Government and local tribes. If we can do that and 
empower them to meet the housing needs in their individual 
communities, I think we will have succeeded.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Senator Lankford?

               STATEMENT OF HON. JAMES LANKFORD, 
                   U.S. SENATOR FROM OKLAHOMA

    Senator Lankford. Thank you, Mr. Chairman.
    I just want to make a brief introduction of Mr. Russell 
Sossamon who is from the Choctaw Nation of Oklahoma. It is the 
third largest tribe in the Country with over 200,000 members 
who are scattered all over the place. There is a unique 
perspective, obviously, for non-reservation tribes as the 
housing issues are common both in reservation and non-
reservation tribes.
    I appreciate him coming. It is not the first time he has 
testified before this Committee but we are glad to have his 
insight as he returns today.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Lankford.
    Senator Franken.

                 STATEMENT OF HON. AL FRANKEN, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Franken. Thank you, Mr. Chairman.
    It is my honor to introduce my friend, Karen Diver, 
Chairwoman of the Fond du Lac Band of the Lake Superior Ojibwe. 
Chairwoman Diver is an ideal witness to discuss the 
reauthorization of NAHASDA.
    Under her leadership, Fond du Lac has been leading the way 
in addressing the housing needs of its community. Two years 
ago, Fond du Lac opened the first supportive housing project in 
the country dedicated to serving homeless veterans on Indian 
reservations. She has also testified before the Indian Affairs 
Committee before on the harsh impact of sequestration on Indian 
Country.
    It is my pleasure to welcome Chairwoman Diver back to the 
Committee. I look forward to hearing from her and all the 
witnesses today.
    Thank you.
    The Chairman. Thank you, Senator Franken.
    Senator Lankford.
    Senator Lankford. Let me finish out this conversation and 
welcome the Cherokee Nation. We are glad to be able to have 
both Choctaw and Cherokee here. We have significant 
relationships across the entire State.
    As most folks know, in Oklahoma we have 39 recognized 
tribes, 38 federally-recognized and what happens with housing 
is obviously incredible different not only on reservation and 
non-reservation, but area to area within the State.
    The southeast part of our State and the northeast part of 
our State are only unique in that they are both in Oklahoma, 
based on the real differences that are there. We are glad to 
have you here, Mr. Cooper, as well.
    Thank you, Mr. Chairman.
    The Chairman. Senator Heitkamp.

               STATEMENT OF HON. HEIDI HEITKAMP, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Heitkamp. Mr. Chairman, I have just a brief comment 
that is kind of to lay down a marker.
    I am extraordinarily interested in moving NAHASDA forward. 
I think it is critically important but even if we authorize 
NAHASDA and even if all that money gets deployed in a very 
short period of time, we will still have a crisis in housing in 
Indian Country.
    Where NAHASDA is critically important for all the reasons 
the Chairman stated, we have to have a different and more 
expansive strategy to deal with the housing needs in Indian 
Country.
    I want to thank the Chairman for bringing this forward, but 
also encourage further discussion about private-public 
partnerships, working with States to build more and more 
affordable housing.
    The Chairman. Thank you, Senator Heitkamp.
    We will now hear from our witnesses. I want to remind each 
of the witnesses that your full testimony will be made a part 
of the official hearing record. Please keep your statements to 
five minutes so that we may have time for questions.
    We look forward to hearing the testimony beginning with 
Chairwoman Diver. Please proceed.

STATEMENT OF HON. KAREN DIVER, CHAIRWOMAN, FOND DU LAC BAND OF 
                 LAKE SUPERIOR CHIPPEWA INDIANS

    Ms. Diver. Good afternoon. Thank you so much for having me 
here today.
    I am Karen Diver, Chairwoman of the Fond du Lac Band of 
Lake Superior Chippewa of Minnesota. I suppose it should be 
said Chippewa, Choctaw, and Cherokee. That reminds me of a 
really bad Country song or something.
    I did provide some rather extensive written testimony. I 
think I would like to expand on that written testimony just a 
bid.
    No doubt we have challenges in Indian Country regarding 
housing. Many of you have already noted those, very lengthy 
waiting lists. Just when we do a project and think we have made 
some statistical impact on it, another generation comes along 
or more people become eligible or want to move home.
    Overcrowding and homelessness, we all know that at the 
McKinney-Vento definition of homelessness does not work in 
Indian Country because it does not take into account couch 
surfing and overcrowded conditions. That is what homelessness 
looks like in Indian Country.
    The age of our housing stock, as also noted, `37 Act 
housing, in many cases, was built substandard and now it is 
further stressed by overcrowding. Additionally, there are more 
restrictions on that housing not enabling us to convert them 
from rentals to NAHASDA homeownerships because you lose crucial 
maintenance monies that are restricted to `37 Act housing.
    At some point, kind of fixing the incongruity between `37 
Act housing and NAHASDA housing and allowing us to be 
entrepreneurial and self determined with that older housing 
stock would be something that would be very useful to tribes in 
meeting these new needs. Development challenges were noted, 
everything from loss of land base, the very rural nature of our 
housing development, infrastructure development, the difficulty 
in using different sources of funding; sometimes for 
development, if we would like to use Indian Health Service 
dollars, USDA dollars combined with NAHASDA dollars, BIA road 
money.
    Some of those barriers were removed during the period of 
the ARRA funding but now back in regular funding cycles. A lot 
of those restrictions remain in place and do not allow us to 
leverage within existing housing funding sources for 
development.
    All of the challenges being duly noted, we should actually 
look at the opportunities. There are vast numbers of 
opportunities. Minnesota conducts a homeless count every three 
years in Minnesota. When asked what does homelessness look like 
on reservations, they never counted homelessness on 
reservations, yet that was the tool they used to deploy 
resources in Minnesota for State housing funds.
    Tribal entities worked with the State to conduct the first 
ever tribal homeless counts in Minnesota. That resulted in the 
State doing three years of extraordinary funding to Indian 
Country to make up for the many years of deficits.
    We were able to use those funds and leverage it with other 
sources much like any other housing developer and operator that 
would operate in any municipality or county. Federal Home Loan 
Bank funds and other sources were brought to the table and 
leveraged our NAHASDA dollars about 6 to 1 for every dollar of 
NAHASDA money, six dollars in other matching funds.
    Twenty-four units supportive of housing to help a chronic 
and long-term homeless population on the reservation. Not only 
are we providing them with the housing first model, but we are 
providing them with those services which allow them to become 
self-sufficient over the long term and hopefully move into 
regular housing without supportive services.
    We have seen families where this is the first time in their 
families lives their children have been able to stay in the 
same school for three to four years in a row for the first time 
in their life. You cannot count the amount that helps in 
remedial actions and other services that would be necessary for 
those children.
    Flexibility for new housing models beyond rentals and 
homeowners is critical for NAHASDA. The VASH vouchers, thank 
you all of you who helped us make tribes eligible for VASH 
vouchers, meeting a critical need for our veterans. That should 
be hitting fairly soon. We offered commentary to make sure we 
can serve those folks as best we can with those supportive 
services.
    Tribes are being trained on new models of housing 
consistent with the continuums of care, everything from 
emergency rental assistance to down payment assistance. We 
offer those things but just so you know, once we do, those 
funds are no longer available to do housing development out of 
NAHASDA.
    We can be entrepreneurial with a little bit more. We have 
the self-governance and program capabilities. We need your help 
to get those resources so we can offer as many alternatives as 
possible for our home community.
    With that, I thank you.
    [The prepared statement of Ms. Diver follows:]

Prepared Statement of Hon. Karen Diver, Chairwoman, Fond du Lac Band of 
                     Lake Superior Chippewa Indians
    Mr. Chairman, members of the Committee, I am Karen R. Diver, 
Chairwoman of the Fond du Lac Band of Lake Superior Chippewa. On behalf 
of the Band, I would like to thank you for holding this hearing on S. 
710 to reauthorize the Native American Housing Assistance and Self-
Determination Act.
    NAHASDA is an invaluable tool to help tribes meet the longstanding 
and very serious lack of affordable housing in Indian country. We very 
much appreciate all of the work that this Committee has done, and 
continues to do, to reauthorize this important legislation.
The Unmet Need for Decent, Safe and Affordable Housing in Indian 
        Country
    As this Committee knows from your work on this matter, the housing 
needs for Native Americans are substantial. Native Americans continue 
to suffer from the most substandard housing compared to the population 
at large. The Fond du Lac Band, like tribes nationwide, has 
longstanding and severe housing needs. At Fond du Lac we have been 
striving to combat the endemic problems that result from the lack of a 
sufficient supply of decent, safe and affordable housing. NAHASDA has 
been critical to our ability to begin to make progress in addressing 
those needs, but there is still much to do.
    The Fond du Lac Band occupies a small reservation in northeastern 
Minnesota. The Band has approximately 4,200 members, and we provide 
health, education, social services, public safety, housing and other 
governmental services to more than 6,700 Indian people who live on or 
near our Reservation.
    The lack of safe and affordable housing has been a serious problem 
for the Fond du Lac Band for decades. In working to address this, we 
face several considerable challenges.
    One such challenge is our land base. Although our Reservation 
encompasses 100,000 acres, the federal allotment policy of the 1880s 
left us with the poorest lands; our most valuable lands went to timber 
companies and homesteaders. In addition, our Reservation is located in 
a geographic area that contains mostly marginal lands that require 
costly drainage projects for the land to be useable. Our lands are 
considered a difficult environment for affordable housing because they 
require high development costs associated with substandard soils, 
expensive sewage systems, and a lack of decent infrastructure. In an 
effort to meet our members' housing needs, we have to invest 
significant funds to remediate our Reservation lands, purchase other 
lands, and construct the infrastructure (septic systems, water and 
sewer lines, roads, and utility services) that is essential to provide 
housing.
    A second challenge we face has been, and continues to be, the very 
substantial need among our members for affordable housing. Although we 
have made strides in expanding economic and employment opportunities on 
our reservation, poverty and unemployment persist. According to the 
2010 Census, 11.6 percent of Minnesotans were living in poverty while 
the poverty rate among American Indians in the State was 39.5 percent. 
And in 2010, the median household income for American Indians in 
Minnesota was approximately $27,000, which was less than half the 
statewide median of $55,459. \1\ As to unemployment, according to the 
U.S. Census Bureau American Community Survey 2006-2010, unemployment at 
Fond du Lac was 14.1 percent, while unemployment among all Minnesotans 
was less than half that--at 6.4 percent. The large number of Indian 
people who are unemployed or living below the poverty level puts a huge 
demand on tribes to provide affordable housing.
---------------------------------------------------------------------------
    \1\ See Minnesota Council of Nonprofits, Minnesota Budget Project.
---------------------------------------------------------------------------
    A third challenge we face is a very limited housing stock, and 
limited financial resources to build, acquire and maintain a supply of 
housing sufficient to meet the needs of our members. Many of our 
housing units are over twenty years old, with the oldest units built 
more than 40 years ago, in 1970. Because of the age of our housing 
stock, the units are constantly in need of maintenance and repairs. 
Approximately 30 percent of our housing units require major renovation, 
such as the replacement of roofs and siding, as well as upgrades in 
plumbing and other utility systems, and the replacement of windows and 
doors. Other units require routine repairs and maintenance, the average 
cost of which currently is $11,000.
    Our current housing stock is simply not sufficient to meet the need 
for low income housing. Because of the costs of maintenance and repair, 
we have little left to acquire or build additional low income rental 
units. We currently have a waiting list of 185 applicants seeking low 
income and homeownership housing. We have many other tribal members who 
are also in need of housing, but who do not apply and therefore do not 
appear on our waiting list--either because they feel that the wait for 
housing is too long, or because they believe that they might not meet 
the income eligibility requirements for low income housing. 
Accordingly, our waiting list understates the full need for housing 
among our members.
    The severity of our housing shortage also means that many Indian 
households that we serve--close to 20 percent of our service 
population--live in overcrowded homes. It is not uncommon on our 
Reservation and among our people to find 10 or more individuals living 
together in a two-bedroom home. Overcrowding, in turn, accelerates the 
wear and tear on those homes, creating a vicious cycle of need. 
Overcrowded housing creates other risks. It increases the risk of fire 
and accidents. It can lead to unsanitary conditions, with increased 
spreading of normally preventable illnesses. Overcrowded housing also 
leads to a stressful environment that can create or exacerbate family 
dysfunction. Overcrowded homes can be especially harmful to children, 
putting at risk their health, development, and educational success.
    Overcrowded housing is also a symptom of a larger housing problem--
homelessness and near-homelessness. Many people in overcrowded homes 
are either actually homeless or only a step away from becoming 
homeless, but these individuals are often overlooked in the traditional 
means by which homelessness is counted. The standard procedure for 
estimating homelessness is through point-in-time counts of the number 
of persons who, on a given night, are living either in a shelter or on 
the street. This approach makes sense in urban areas where shelters are 
available or homelessness is visible, but does not fit in rural 
communities (or Indian country) where small populations are dispersed 
over a larger geographic area, and emergency shelters are uncommon. As 
discussed in a number of studies, including a 2013 report by the 
Housing Assistance Council (HAC) and the Corporation for Supportive 
Housing (CSH), \2\ in rural communities (including Indian county), 
homeless individuals and families ``typically experience precarious 
housing conditions, moving from one extremely substandard, overcrowded 
housing situation to another, often doubling or tripling up with 
friends or relatives.'' As the HAC and CSH further found, these 
problems are compounded in Indian country, which has experienced a 
history of persistent poverty and inadequate housing on tribal lands.
---------------------------------------------------------------------------
    \2\ Housing Assistance Council and Corporation for Supportive 
Housing, Conducting Homeless Counts on Native American Lands: A Toolkit 
(February 2013).
---------------------------------------------------------------------------
    The severity of homelessness among Indian communities was confirmed 
by a series of studies of homelessness among Native Americans on 
Reservations in Minnesota, including the Fond du Lac Reservation. As 
those reports explained: \3\
---------------------------------------------------------------------------
    \3\ Wilder Research, 2006 Study: Homeless and Near-Homeless People 
on Northern Minnesota Indian Reservations, at 2 (Nov 2007).

         The federal definition of homelessness does not include 
        doubling up with family and friends, and so tells only part of 
        the story in describing the experience of homelessness on 
        Indian reservations. On reservations extended family ties are 
        strong, and traditions dictate that those who have housing will 
---------------------------------------------------------------------------
        take in those who do not, if at all possible.

         Doubling up with family or friends is often the last housing 
        arrangement a person has before becoming literally homeless, 
        and it is common for people to go back and forth between 
        doubling up and homelessness.

    These studies further found that a disproportionately high number 
of Native Americans in Minnesota are homeless. A study done in 2012 
found that although Native American adults are only 1 percent of the 
State population, they are 10 percent of the adults identified as 
homeless. And while Native American youth (under age 21) are only 2 
percent of the youth population in Minnesota, they are 22 percent of 
the homeless youth that are unaccompanied by an adult. \4\
---------------------------------------------------------------------------
    \4\ Wilder Research, 2012 Minnesota Homeless Study: Fact Sheet, 
Initial Findings, Characteristics and Trends, at 2 (April 2013).
---------------------------------------------------------------------------
Why NAHASDA Is Critical to Helping Address Unmet Housing Needs in 
        Indian Country
    The Fond du Lac Band--like many tribes across the Nation--is doing 
everything it can to address these serious housing needs. The resources 
provided through NAHASDA have been critical to this effort.
    At the most basic level, NAHASDA has been key to our ability to 
repair and maintain our existing housing stock. We have also relied on 
NAHASDA to address the costs of infrastructure--especially septic and 
water systems--needed for housing. We also use a small part of our 
NAHASDA funds to aid eligible Band members with emergency rental 
assistance.
    But in addition, as a result of the funds provided through NAHASDA, 
the Fond du Lac Band has been able to use a portion of those funds, 
supplemented by other Band resources, to partner with state and private 
entities in an effort to begin to more comprehensively address housing 
needs. In particular, in July 2010, we completed construction of 24 
units of Supportive Housing to provide housing and related social 
services to low income tribal members and their families who are 
homeless or live in overcrowded conditions or places that are unfit for 
habitation. The project was constructed using a combination of funding 
sources that included NAHSADA, tribal, private non-profits, and state 
funds. This housing development includes a mix of housing types to meet 
a range of needs--with several townhomes for families, as well as an 
apartment building with efficiency, one and two-bedroom units. We used 
green technology to reduce long-term operating expenses. Our Housing 
Division operates these supportive housing units in conjunction with 
our Human Services Division so that social and related services are 
also provided to these tenants to address the barriers to their ability 
to maintain housing and to create a support system to prevent 
homelessness. These supportive services are provided both on-site and 
within walking distance of the housing units.
    In July 2013, the Band, again in partnership with state, private 
and non-profit entities, was able to leverage tribal and NAHASDA funds 
to complete construction of the first Veteran's Supportive Housing 
facility in Indian country. Our Veterans Supportive Housing consists of 
10 units to provide housing for Native American Veterans and their 
families who are homeless or at risk of homelessness. Because these 
units are operated as supportive housing, our Social Services Division 
works with the Veterans who are tenants in these units to provide 
medical and social services to help them address problems that put them 
at risk of homelessness. In short, we seek to provide them with an 
affordable, stable home and the tools to gain more control over the 
decisions that affect their lives.
    We are grateful to the members of this Committee for the work done 
last December to have Congress include, in the FY15 Omnibus 
Appropriations Act, a provision that authorizes the Department of 
Housing and Urban Development to set aside a portion of the funds 
provided for the HUD-Veterans Supportive Housing Program (HUD-VASH), 
for use in tribally-administered housing projects to serve Native 
American veterans. As many of you know, by the HUD-VASH program, HUD 
and the Department of Veterans Affairs work to combat homelessness 
among veterans by providing vouchers so that they can obtain rental 
assistance for housing along with related supportive counseling and 
clinical services. The program, revived by President Bush in 2008 and 
supported by President Obama, has been very successful, as HUD's data 
shows a 17 percent reduction in homelessness among veterans from 2009 
to 2012. But due to an oversight in the law, the HUD-VASH program had 
not been available to Native American veterans for use in tribally-
administered housing projects. The provisions that you and your 
colleagues included in the FY15 Omnibus Appropriations Act established 
the first critical step to fixing this problem. We understand that HUD 
is now working on regulations to implement the Tribal VASH program, and 
the availability of HUD-VASH vouchers for use in tribally-administered 
Veteran's Supportive Housing will be of tremendous assistance by 
providing us, and other tribes, with help on the operating subsidy that 
is essential to our ability to effectively provide supportive housing 
to veterans.
The Reauthorization Bill, S. 710
    We support S. 710. We agree with its provisions, set out in section 
102 of the bill, to help streamline the environmental review process 
required for housing construction and rehabilitation. This is 
especially important since tribes, like Fond du Lac, often rely on a 
variety of funding sources from different agencies to build housing and 
should not be subject to multiple and potentially different NEPA 
requirements for the same project.
    We also support the provisions of S. 710 which would not cap 
appropriations at the current funding level but would instead allow the 
appropriators to adjust funding levels to meet need.
    In addition, we very strongly support section 501 of the bill, 
which would permanently authorize the Tribal HUD-VASH program that was 
initiated in the FY15 Omnibus Appropriations Act. The rules set out in 
that section will allow the program to be implemented within the 
framework established by NAHASDA, which should ensure that the program 
fits the unique needs for veterans supportive housing in Indian 
country.
    Housing represents the single largest expenditure for most Indian 
families. The development of housing has a major impact on the national 
economy and the economic growth and health of regions and communities. 
Housing is inextricably linked to access to jobs and healthy 
communities and the social behavior of the families who occupy it. The 
failure to achieve adequate housing leads to significant societal 
costs.
    Decent, affordable, and accessible housing fosters self-
sufficiency, brings stability to families, vitality to distressed 
communities, and supports overall economic growth. In particular, it 
improves life outcomes for children. In the process, it reduces a host 
of costly social and economic problems that place enormous strains on 
the education, public health, social service, law enforcement, criminal 
justice, and welfare systems.
    As illustrated by the Fond du Lac Band's experience, NAHASDA is 
critical not only to our ability to maintain existing affordable 
housing for our members--but also to our ability to leverage federal 
and tribal funds into innovative partnerships with the state and 
private sector so that we can expand the resources available to meet 
unmet housing needs. We have begun to make inroads on these challenges, 
but much remains to be done. NAHASDA is an essential tool for us to 
continue this important work, and we urge it be reauthorized on the 
terms set out in S. 710.
    Miigwech. Thank you.

    The Chairman. Thank you so much.
    Mr. Cooper.

  STATEMENT OF GARY COOPER, CHAIRMAN, LEGISLATIVE COMMITTEE, 
               NATIONAL AMERICAN INDIAN HOUSING 
                            COUNCIL

    Mr. Cooper. Good afternoon.
    Thank you, Mr. Chairman and members of the Committee.
    My name is Gary Cooper. I am an enrolled member of the 
Cherokee Nation. I am Executive Director of the Housing 
Authority of the Cherokee Nation and I am Chairman of the 
Legislative Committee of the National American Indian Housing 
Council. I am here today in that role as Chairman of NAIHC's 
Legislative Committee. Thank you for the opportunity to appear.
    NAIHC was founded in 1974 and for decades has provided 
invaluable training and technical assistance and other services 
to all tribes and tribal housing entities. The membership of 
NAIHC is expansive. We are comprised of 274 members 
representing 473 tribes and tribal housing organizations. 
NAIHC's members span the entire country from Florida to Alaska, 
from New Mexico to Maine and reside in each every State 
represented by the members of this Committee.
    Our members are deeply appreciative of the consistent 
leadership this Committee provides to Congress related to the 
issues affecting tribal communities and tribal housing.
    It comes as no surprise to you that tribal communities 
suffer the highest unemployment and poverty rates, the worst 
health, poor education options and the most substandard housing 
in Indian Country.
    Native Americans disproportionately experience socio-
economic challenges including high unemployment and extreme 
poverty that impact housing conditions in Indian Country. While 
Indian Country has made real strides in economic growth and 
development in the last 30 years, the sad truth is in 2015, 
poverty in America continues to have an Indian face.
    Prior to the passage of NAHASDA in 1999, the model for all 
housing in Indian Country was pretty much a cookie cutter model 
that was the same whether it was Karen's region, my region or 
anywhere else. That does not work.
    The passage of the Native American Housing Assistance and 
Self Determination Act of 1996 signaled a shift in that 
relationship between Federal and tribal governments with 
respect to housing programs. It also put decision-making at the 
local levels with the tribes under the self-determination part 
and recognized tribal sovereignty. It worked to improve housing 
conditions throughout Indian Country. By enacting it, it really 
helped to address the housing crisis that exists.
    In preparation for NAHASDA being reauthorized this year, 
NAIHC began a vast outreach of our membership leading up to 
this point. We facilitated in-depth and ongoing discussions to 
look at the effectiveness of the Act, reviewed each of the 
individual components, rules and regulations and so on.
    We reached out to our members and came up with some draft 
language that we would propose. We are happy to see that a 
number of those provisions are included in S. 710. We agree 
with the provisions contained in Section 101. This change will 
result in more efficient use of scarce Federal dollars.
    We also strongly endorse the proposed changes to redundant 
environmental review requirements as provided in Section 102 of 
the bill. Our membership supports Section 201. We believe this 
provision aligns well with tribal sovereignty and self-
determination in the delivery of Indian housing programs. We 
agree with Section 202, in binding commitments and useful life. 
We do not, as an organization, have a formal position on the 
bill language concerning un-dispersed funds.
    Section 401 is also a section that is supported by our 
membership. As Chairwoman Diver mentioned, we are very ecstatic 
and enthusiastic to see HUD-VASH included in the bill so we can 
deliver much needed housing assistance to our Native American 
veterans. We look forward to the day that we can do that.
    NAIHC does have some concerns with Section 503 of the bill. 
Our members do not support a chance to delivery of training and 
technical assistance from the way it has been in the past.
    All in all, we support the remainder of the bill. We are 
happy with and support Sections 701, 702, 703, 704 and 705. We 
think this is a very good bill.
    Thank you, Mr. Chairman, for your leadership on this 
important issue and for your kind invitation for us to appear 
today.
    [The prepared statement of Mr. Cooper follows:]

  Prepared Statement of Gary Cooper, Chairman, Legislative Committee, 
                National American Indian Housing Council
    Good Afternoon. My name is Gary Cooper, and I am an enrolled member 
of the Cherokee Nation, Executive Director of the Housing Authority of 
the Cherokee Nation, and Chairman of the Legislative Committee of the 
National American Indian Housing Council (NAIHC). I am here today in my 
capacity as Chairman of the NAIHC's Legislative Committee.
    The NAIHC's 267 members represent nearly 470 tribes and tribally- 
designated housing entities from across the United States. NAIHC was 
established 41 years ago and continues to provide vital training and 
technical assistance to increase the managerial and administrative 
capacity of tribal governments.
    Thank you for the opportunity to appear before you today.
Background on the National American Indian Housing Council
    The NAIHC was founded in 1974 and for four decades has provided 
invaluable Training and Technical Assistance (T&TA) to all tribes and 
tribal housing entities; provided information to Congress regarding the 
issues and challenges that tribes face in the many issues of housing, 
infrastructure, and community and economic development arenas; and 
worked with key federal agencies to address these important issues.
    The membership of NAIHC is expansive, comprised of 274 members 
representing 473 \1\ tribes and tribal housing organizations. NAIHC's 
member tribes span the entire country from Florida to Alaska, from New 
Mexico to Maine and reside in each and every state represented by the 
Members of this Committee. Our members are deeply appreciative of the 
consistent leadership this Committee provides in Congress related to 
issues affecting tribal communities.
---------------------------------------------------------------------------
    \1\ There are 566 federally recognized Indian tribes and Alaska 
Native villages in the United States, all of which are eligible for 
membership in NAIHC. Other NAIHC members include state-recognized 
tribes eligible for housing assistance under the 1937 Housing Act and 
that were subsequently grandfathered in the Native American Housing 
Assistance and Self-Determination Act of 1996, and the Department of 
Hawaiian Home Lands, the state agency that administers the Native 
Hawaiian Housing Block Grant program.
---------------------------------------------------------------------------
    NAIHC's primary mission is to support tribal housing entities in 
their efforts to provide safe, decent, affordable, and culturally 
appropriate housing for Native people.
Profile of Indian Country in 2015
    There are 566 federally-recognized Indian tribes in the United 
States. Tribal communities suffer the highest unemployment and poverty 
rates, the worst health, poor education options, and the most 
substandard housing in the country. Historically, Native Americans in 
the United States have faced worse housing conditions than other 
groups. Native Americans disproportionately experience socioeconomic 
challenges, including high unemployment and extreme poverty that impact 
housing conditions on Indian reservations and in other Indian areas.
    The U.S. Census Bureau reported in 2013 that American Indians and 
Alaska Natives were almost twice as likely to live in poverty as the 
rest of the population--27 percent compared with 14.3 percent. Over 40 
percent of Native Americans in North Dakota and South Dakota live below 
the poverty line, and in seven other states (Arizona, Maine, Minnesota, 
Montana, Nebraska, New Mexico, and Utah) Native American poverty rates 
are about 30 percent or more. In addition, overcrowding, substandard 
housing, and homelessness are far more common in Native American 
communities. According to Census 2005-2009 American Community Survey 
data, 5.3 percent of homes on Native American lands lacked complete 
plumbing and 4.8 percent lacked complete kitchens. The comparable 
nationwide figures were 0.5 and 0.7 percent, respectively.
    While Indian Country has made real strides in economic growth and 
development in the last 30 years, the sad truth is that in 2015, 
poverty in America continues to have an Indian face.
Federal Housing Programs Before 1996
    Up to 1996, HUD dominated the design and implementation of housing 
programs in Indian Country. Funding and programs mirrored the 1937 
Housing Act. Older housing developments on reservations are often 
called ``cookie cutter,'' because the nature of the program did not 
contemplate cultural considerations and innovation in design.
    Passage of the Native American Housing Assistance and Self-
Determination Act (NAHASDA) in 1996 signaled a shift in the 
relationship between federal and tribal governments with respect to 
housing programs. NAHASDA is based on tribal decisionmaking at the 
local level and has resulted in improved housing conditions throughout 
Indian Country.
    In enacting NAHASDA, Congress moved to address the housing crisis 
in Indian Country by consolidating federal housing programs into a 
single block grant made directly to Indian tribes or their tribally-
designated housing entities (TDHEs).
    For over 18 years, NAHASDA has been the cornerstone for providing 
housing assistance to low-income families on Indian reservations, in 
Alaska Native villages, and on Hawaiian Home Lands.
Essential Input on NAHASDA Reauthorization from Practitioners
    Throughout 2012-2013, NAIHC held a series of outreach meetings to 
gather input from tribal leaders, Indian housing professionals and 
advocates for consideration during reauthorization deliberations on 
Capitol Hill. NAIHC's input relied heavily on individuals working in 
tribal housing management who possess the extensive experience 
necessary to assess NAHASDA's original intent and to take the lead in 
discussions on best practices and barriers (within NAHASDA) that Indian 
housing directors face on a regular basis.
    The outreach facilitated in-depth, ongoing discussions to assess 
the effectiveness of the Act, its individual components, and its rules 
and regulations in meeting its intended purpose(s). The objective of 
this extensive outreach process was to have a reauthorized Act that 
more effectively accomplishes its objectives.
    Input from this year-long process was catalogued and developed into 
a consensus reauthorization bill. NAIHC maintained regular 
communication with Members of Congress and staff throughout this 
process and shared copies of provisions and reasoning for those 
provisions in draft legislative language. In summary, NAIHC's proposed 
NAHASDA reauthorization is designed to strengthen tribal self-
determination and remove agency-created barriers by establishing 
timelines for departmental approvals and streamlining administrative 
processes.
Comments on S. 710, NAHASDA Amendments of 2015
Title I--Block Grants and Grant Requirements
    We agree with the provision to exempt Davis-Bacon requirements 
contained in section 101 of the bill. Clarification that recipients 
satisfy federal labor requirements when they apply tribally-adopted 
prevailing wage rates to all federal funding sources on projects funded 
all or in part by IHBG would result in additional relief from the 
burdens of the Davis-Bacon Act and will result in more efficient use of 
scarce federal dollars.
    We also strongly endorse proposed changes to redundant 
environmental review requirements as provided in section 102 of the 
bill. These changes would provide recipients a streamlined process by 
applying a single environmental review carried out under NAHASDA that 
would satisfy all other applicable environmental review requirements, 
and in the process substantially reducing the administrative 
requirements to recipients. This provision would reduce delays and 
allow limited resources to be used elsewhere.
Title II--Affordable Housing Activities
    NAIHC membership strongly supports section 201 to clarify that the 
Act's minimum rent requirement does not apply if a block grant 
recipient has a written policy governing rents or homebuyer payments 
charged for housing units. We understand some in the Senate may oppose 
this proposal, but these suggested amendments align well with tribal 
sovereignty and self-determination in the delivery of Indian housing 
programs.
    We agree with section 202 to exempt subsequent homebuyers from 
binding commitments for the remaining useful life of the property. Many 
recipients feel the current regulations do not comport with the goals 
or intent of NAHASDA.
    Section 202 that also relates to binding commitments and useful 
life agreements and would render them inapplicable if the aggregate 
value of improvement is less than 10,000 in a 5-year period.
    While we support this construct, we believe a better approach would 
be to have binding commitments for the remaining useful life of the 
property not apply to improvements of privately owned homes if the cost 
of such improvements do not exceed 10 percent of the maximum total 
development cost for such home.
    NAIHC supports section 202 which permits households participating 
in low-income rental unit to purchase through a contract to purchase, 
without re-qualifying, provided the household was low-income at the 
time of initial occupancy. Many feel the current regulations deter 
success in tenant employment opportunities.
    Section 205 to increase Total Development Costs (TDC) to 20 
percent. TDC is a general guide published by HUD based on a moderately 
designed house, and are determined by averaging the current 
construction costs as listed in two nationally-recognized residential 
construction cost indices for publicly bid construction of a good and 
sound quality.
Title III--Allocation of Grant Amounts
    NAIHC does not have a formal position on the bill language related 
to undisbursed funds.
Title IV--Compliance, Audits, and Reports
    Section 401 is a proposal that has been endorsed by NAIHC 
membership.
Title V--Other Housing Assistance for Native Americans
    Section 501 of the bill would authorize the Secretary to establish 
a rental assistance program for Native American veterans modeled on the 
HUD--Veterans Affairs Supportive Housing (HUD-VASH) program. NAIHC 
enthusiastically supports this language.
    NAIHC has grave concerns with section 503, which would 
fundamentally re-structure section 703 of NAHASDA relating to Training 
and Technical Assistance (T&TA). As proposed, section 503 would route 
T&TA through the department's Transformation Initiative, and would 
ensconce a competitive funding process in the authorizing statute. 
Further, it would render T&TA funds to an open competition involving 
national, regional, and for-profit organizations.
    This is a major departure from the current delivery of T&TA 
outlined in statute. For many years, Indian tribes have volunteered to 
``shave'' their respective block grant allocations and have the NAIHC 
use the funds to provide quality and relevant T&TA. Section 703 
reflects this sentiment in providing that all authorized T&TA funds 
should be provided ``for a national organization representing Native 
American housing interests.'' Since NAHASDA's enactment in 1996, this 
language--and the resulting arrangement for the provision of T&TA--has 
not been challenged.
    If the Committee seeks to acknowledge and further Indian self-
determination and respect tribal sovereignty, it should affirm the 
language of section 703.
Title VII--Miscellaneous
    NAIHC endorses section 701 the proposed language clarifying tribal 
housing programs may qualify as Community Based Development 
Organizations for the ICDBG program. NAIHC would urge language be added 
to specifically note that tribes and/or their Tribally Designated 
Housing Entity may also participate in Community Based Organizations.
    NAIHC supports section 702 in the bill to repeal Section 801 of 
NAHASDA, relating to the limitation on the use of funds for the 
Cherokee Nation.
    We also support provisions in the bill to reauthorize the Native 
Hawaiian Homeownership Act (sections 703 and 704). While we recognize 
there is hardened opposition to these provisions in the Senate, we 
stand by to assist in any way.
    Finally, NAIHC supports section 705 in the bill regarding matching 
or cost-participation requirements, and section 706 regarding funding 
for methamphetamine clean-up projects.
    While S. 710 is a very good offering and we would like to support 
this measure, we cannot in good faith do so as long as the T&TA 
provisions remain as they are. The current language eliminates section 
703 entirely. Section 703 was included at the request of tribes so the 
NAIHC could provide much need training and technical assistance to 
tribal members. During the numerous amendment and reauthorization 
processes, tribes have not suggested amending or deleting section 703--
ever.
    NAIHC would be very happy to work with the Committee to find an 
alternative to the current T&TA provision. Thank you, Mr. Chairman for 
your leadership on this important matter and for your kind invitation 
to appear before you today

    The Chairman. Thank you very much, Mr. Cooper.
    Mr. Sossamon.

  STATEMENT OF RUSSELL SOSSAMON, EXECUTIVE DIRECTOR, CHOCTAW 
              NATION OF OKLAHOMA HOUSING AUTHORITY

    Mr. Sossamon. Thank you, Mr. Chairman, Mr. Lankford, the 
last Senator from the great State of Oklahoma, Senator 
Heitkamp, and Senator Franken for your commitment and hard work 
to assist us in Indian Country, particularly in regard to 
housing.
    I appreciate the opportunity to come and testify before 
this Committee. I have served as Executive Director of the 
Housing Authority of the Choctaw Nation of Oklahoma for the 
past 19 years.
    To sum up my testimony today, I would say we need to 
reauthorize NAHASDA this year, preserve the included provisions 
that significantly increase our ability to be more effective 
and efficient in the delivery of our services, and refine the 
mechanism of the provision that incentivizes timely drawdown of 
funds from the HUD credit control system.
    As Senator Heitkamp pointed out, you are all familiar with 
the severe conditions of housing in Indian Country, so I will 
not go into those needs right now. I will focus primarily on 
the benefits that NAHASDA has given the Choctaw Nation of 
Oklahoma the opportunity to create.
    We created a 501(c)(3) home finance corporation that is a 
CDFI to address the homeownership needs of our tribal members. 
This corporation provides direct lending as well as leverage 
lending through private lending partners.
    To date, we have made over $45 million worth of direct 
loans. We manage a portfolio valued at over $22 million which 
consists of 650 mortgages. Annually, we do approximately 100 
direct loans. We leverage another 84 loans through our lending 
partners, not just in our service area, but across the United 
States wherever tribal members live. To date, we have leveraged 
over $70 million worth of funds for mortgage lending.
    Along with the mortgage lending, we provide home buyer and 
financial counseling. We focus, not only on what it is going to 
take to be a successful homeowner but how to use your home as 
an asset throughout your life to achieve other goals.
    We would like to thank Chairman Barrasso and his staff for 
including in the bill the treatment of the program income, to 
clarify that so that we do not have to track those virtually in 
perpetuity which wastes resources that could be otherwise 
focused on serving our housing needs.
    Senator Heitkamp pointed out that we are going to have to 
come up with a different type of strategy. I believe Section 
502, the 99 year leasehold, will create an environment where 
homeowners will invest on trust land and it will attract 
private capital, not only meeting housing needs but also 
hopefully expanding and creating economies on those lands.
    Section 705, the leveraging provision, I believe will be a 
part of that strategy. It will be comprehensive and it will 
take numerous angles and approaches to solve these problems. We 
have to look at how we address these differently than we have 
ever looked at them in the past. The environment has changed. 
We have to work together, the Federal Government, the State 
governments, the tribes, and our people.
    One of the things that we are in the process of developing 
is a new concept of leveraging the other services in 
coordination within. We will work with our tribal members to 
help them actually move beyond depending on us to support them 
in their housing needs, to get them to a point where they can 
meet their own housing needs.
    We have to do that working with higher education and career 
development, as well as economic development in the area so 
there will be good jobs they will need to be able to afford 
housing. That is a big piece that has been absent.
    I thank you for this opportunity. I thank you for 
introducing S. 710 and working for the reauthorization of 
NAHASDA. I would be happy to answer any questions.
    [The prepared statement of Mr. Sossamon follows:]

  Prepared Statement of Russell Sossamon, Executive Director, Choctaw 
                  Nation of Oklahoma Housing Authority
I. Introduction
    Good morning Chairman Barrasso, Vice Chairman Tester, and 
distinguished members of the United States Senate Committee on Indian 
Affairs (SCIA). My name is Russell Sossamon. I am an enrolled member of 
the Choctaw Nation of Oklahoma (CNO) and for the past nineteen (19) 
years have served as the Executive Director of the Housing Authority of 
the Choctaw Nation of Oklahoma (HACNO), located in Hugo, Oklahoma. It 
is an honor to be invited here to present testimony on behalf of the 
Choctaw Nation of Oklahoma.
    I want to thank the Committee for holding this important 
legislative hearing this afternoon on S. 710, The Native American 
Housing Assistance and Self-Determination Reauthorization Act of 2015 
(NAHASDA). And I in particular want to express my sincere appreciation 
to Chairman Barrasso and his staff for introducing last week the bill 
for which this hearing is being conducted as the vehicle to move 
NAHASDA reauthorization towards passage in the Senate. As a long-time 
official at the CNO working in all areas of the tribal housing, I am 
professionally enthused by seeing this movement on Capitol Hill so 
quickly on this much-needed legislation barely 2 months into this new 
114th Congress. And I am personally heartened not only by the good 
intentions that brought the bill forward but also by the good that I 
know will result in my community at the CNO and throughout Indian 
Country once the legislation is enacted. I am confident that Senator 
Barrasso and his colleagues on the Committee will work to move the 
legislation without undue delay and I thank you all in advance for your 
hard work in doing so.
    As you may know, I testified before this Committee in the last 
Congress nearly 2 years ago at an oversight hearing on ``Identifying 
Barriers to Indian Housing Development and Finding Solutions.'' That 
was just a few months prior to the expiration of the most recent 
authorization of the NAHASDA at the end of FY 2013. Since that 
expiration over a year and a half ago, several bills have been 
introduced to reauthorize the NAHASDA in the Senate and House. Even 
prior to the expiration, the CNO, as a member of the National American 
Indian Housing Council (NAIHC) representing over 460 tribes and 
tribally-designated housing entities (TDHEs), worked with its fellow 
NAIHC members to push for the enactment of reauthorization legislation 
based upon the NAIHC's consensus-based draft bill recommendation. At 
the close of the last Congress, we came close but simply ran out of 
time. This speedy introduction of a reauthorization bill in this new 
Congress here in the Senate, as well as Rep. Steve Pearce's bill H.R. 
360 introduced in the House earlier this year, should give enough time 
in the legislative process to enable all relevant issues to be raised 
and concerns to be addressed. If there is anything I can do after 
today's hearing to help ensure the current lapse in authorization is 
soon brought to an end by the enactment of reauthorization legislation, 
please let me know. I would be happy to assist in any way that I can.
    In my testimony today, I will touch briefly upon a few of the 
provisions of Chairman Barrasso's bill that I believe will be 
particularly beneficial to the CNO and other tribes and TDHEs 
throughout Indian Country. One of those provisions is Section 705, 
pertaining to leveraging of NAHASDA funds, by enabling their use for 
matching or cost participation requirements under other federal and 
non-federal programs creating the potential to significantly assist the 
CNO and other NAHASDA recipients in multiplying the number of low-
income tribal members we serve. The use of leveraging is a hallmark of 
the CNO's housing programs, and I therefore will share some of our 
beneficial programs and outcomes made possible by the NAHASDA and other 
federal funds, many of which have successfully used leveraging for 
years.
    I will also lay out some background on the CNO and the challenges 
it faces in providing services to its members, as well as to members of 
dozens of other tribes who live within our Nation's service area. I 
will then examine some of the reasons why the provision of safe, 
quality, affordable housing in Indian Country generally, and within the 
CNO in particular, is such a challenge. This will be followed by 
background information on the federal legislative and administrative 
efforts to address that challenge, which ultimately culminated in the 
passage of the NAHASDA. That will lead me into examples of the 
innovative and effective housing programs administered through the 
HACNO, including the use of leveraging, to show why this Congress 
should continue to support tribal housing programs and work to quickly 
approve the reauthorization of the NAHASDA during this current fiscal 
year. Importantly, that reauthorization should include, as Senator 
Barrasso's bill currently does, the affirmation and respect for the 
negotiated-rulemaking process. Like all federal legislation that aims 
to accommodate the needs of many tribes across the country, from the 
perspective of a practitioner, there are some minor points in Senator 
Barrasso's bill that could be refined to increase its effectiveness, so 
in conclusion I will point out of those that Congress may consider 
examining for potential revision in the upcoming legislative process 
for the NAHASDA reauthorization.
II. Likely Benefits of S. 710, the Native American Housing Assistance 
        and Self-Determination Reauthorization Act of 2015
    The NAHASDA Reauthorization Act of 2015, if passed, would be a big 
stride in the federal government's fulfillment of its trust 
responsibility towards tribes and TDHEs. There are a multitude of 
benefits--the HUD-VASH program to assist homeless and at-risk veterans 
housing and with rental assistance programs; the elimination of 
redundant environmental reviews for multi-sourced federally funded 
projects; and the list goes on. I will touch upon a few of particular 
importance to the CNO and other NAHASDA recipients:
    Section 101--Treatment of Program Income--Part of this section 
clarifies that income realized by a recipient from program income is 
``non-program income'' that is not subject to restrictions on use. This 
is consistent with current regulations that are not as succinctly 
stated. The current regulations have to link together from various 
places for the intent to be clear. Often the those connections are not 
made and tribes are forced to use scarce resources on unnecessary 
administrative burdens. This will prevent recipients from having to 
track program income in perpetuity no matter how tenuous its connection 
to the original grant funds becomes over time.
    Section 102--Environmental Review--This section eliminates 
excessive administrative burdens by providing tribes with a consistent 
single point of contact in conducting federal environmental review.
    Section 103--Authorization of Appropriations--This provision's 
absence of a cap on the amount of authorized appropriations and 
permitting the option for the appropriation of such sums as may be 
necessary for the NAHASDA is much needed. While the NAHASDA funds are 
immensely appreciated by tribes and TDHEs and are tremendously helpful 
in beginning to meet tribal housing needs, they have never, in the 
history of the program, been sufficient to meet all of the basic 
housing needs of Indian tribes or to accomplish all of the purposes for 
which the NAHASDA was designed. Like many government programs, it is 
consistently and continuously underfunded. Therefore, tribes and their 
housing departments such as the HACNO have been forced to creatively 
think of ways to stretch their dollars and come up with unique and 
innovative tools to meet the housing needs in their communities. At the 
CNO, we are moving towards our goal of self-sufficiency, but still have 
a ways to go. We know the absence of any authorized funding cap is no 
guarantee of increased funding by appropriators, but it at least does 
not limit available options.
    Section 202--Homeownership or Least-to-Own Low-Income Requirement 
and Income Targeting.
    This provision removes requirements for binding commitments for de 
minimus home repairs and renovations. It will help the CNO address 
inefficiencies that have plagued our programs for years. Section 
205(a)(2) of the NAHASDA requires that housing units remain affordable 
for either the remaining useful life of the property, as determined by 
the Secretary, or for another period that the Secretary determines is 
the longest feasible period of time consistent with sound economics and 
the purpose of the Act. The Act also requires that this affordability 
be secured through binding commitments satisfactory to the Secretary. 
Unfortunately these provisions regarding binding commitments have been 
interpreted so as to result in the unintended consequence of creating a 
lien on an entire housing unit and thereby bind up a much-needed 
housing asset, for even the smallest binding commitments that were made 
for very minor maintenance or repair expenditures. This creates an 
unnecessary expense and heavy administrative burden for small 
maintenance and repair expenditures. In short, Section 202 of the 
NAHASDA Reauthorization Act of 2015 would provide that the binding 
commitments for the remaining useful life of property will not apply to 
private home improvements if the costs of the improvements do not 
exceed 10 percent of the maximum total development cost for the home. 
Not only will this free up actual needed homes, but it will also permit 
us to use the monies currently spent on administering liens to actual 
programmatic use.
    Section 501--HUD-VASH Program for Native American Veterans--This 
section provides opportunities for tribes to access resources to assist 
our homeless and at-risk veterans' housing and support needs. The 
rental vouchers in conjunction with coordinated support services of 
other vital programs and benefits allow us to go beyond fundamental 
housing and holistically meet the needs of our heroes.
    Section 502--The 99-year Leasehold Interest in Trust or Restricted 
Lands for Housing Purposes--This provision will provide tribes and 
TDHEs with the ability to make long-term lease commitments that 
encourage potential homebuyers to invest and attract private capital 
that is desperately needed beyond currently available resources. This 
is a key condition to creating an environment that, in addition to 
enhancing our ability to achieve the primary objective of meeting 
housing needs, also has the potential to develop and/or expand 
economies into these areas.
    Section 504--Loan Guarantees for Indian Housing--This section 
removes the cap on the total value of loans that the  184 program can 
guarantee in a given year, thereby permitting the maximum usefulness of 
the program.
    Section 701--Community-Based Organizations and Tribally Designated 
Housing Entities--This section would make TDHEs eligible as community-
based development organizations (CBDOs) under the Indian Community 
Development Block Grant (ICDBG) program. This is particularly important 
to the CNO. Last year the CNO provided the matching funds for the ICDBG 
grant application for the HACNO to develop an Independent Elders Living 
Community development in a tribal area that currently does not have 
one. The project included the purchase of a minimum 20 acres of land, 
infrasture development of the property, and initial construction of 10 
single family rental units. We have successfully completed six other 
projects just like this using the NAHSDA funding in the past in areas 
across half of our total service area. These initial sights were shovel 
ready and expanded when the American Recovery and Reinvestment Act 
(ARRA) funding was made available. Other funding has also been used to 
expand the existing sites. Now we are planning on developing similar 
sites across the other half of our service area over a five-year 
period. The only reason our application was not funded was because of 
the absence of a CBDO designation. While the NAHASDA legislation has 
improved over the years to adapt to changes in the environment to take 
advantage of opportunities and create solutions to our challenges, the 
ICDBG language remained constant, becoming obsolete at best and in our 
circumstance actually illogical. This measure is long overdue and 
tremendously needed.
    Section 705--Leveraging--This provision will allow NAHASDA funds to 
be used as matching or cost participation funds under any other federal 
or non-federal program. As noted in more detail below, CNO's Home 
Finance Program already provides assistance through the leveraging of 
funds with lending partners to increase the number of potential home 
loans throughout the country. The Home Finance Program also has 
leveraged nearly $70,000,000 through participating lending partners who 
provide mortgages as part of government guarantee programs such as the 
Native American Section 184, Federal Housing Administration (FHA), 
Veterans Administration (VA), and U.S. Department of Agriculture Rural 
Development home loan programs. The Nation appreciates this opportunity 
to potentially use NAHASDA funds in more varied ways to multiply the 
results of our programs and services.
    Before I delve into some of the success stories leveraging have 
enabled at the CNO, some background information on the Nation and its 
NAHASDA-funded programs is provided for context.
III. The Choctaw Nation of Oklahoma--Large-Scale Challenges and 
        Opportunities
    The housing issues in Indian Country cannot be separated from the 
big-picture social and economic challenges it also faces, and the CNO 
knows those challenges all too well. The CNO is the third largest 
Indian tribe in America, with over 200,000 enrolled tribal members 
spread all across the country. In a word, the CNO is immense. Inherent 
with that greater size and breadth are even greater responsibilities 
that are placed on the shoulders of the Nation's government to look 
after the welfare of its members. To add to that responsibility, the 
Nation's service area encompasses 10\1/2\ counties in southeastern 
Oklahoma, a land area larger than the entire state of Massachusetts, 
and within that service area are American Indian and Alaska Native 
constituents who may be far from their original tribal communities but 
to whom the CNO nonetheless provides services. Just one example is the 
tremendous demand placed on the Choctaw Nation of Oklahoma Health 
Services (CNOHS), which have provided healthcare services to patients 
who hailed from 148 different American Indian and Alaska Native tribal 
groups.
    With an increasing tribal population and stifling economic 
conditions that have hit tribal communities such as the CNO 
particularly hard over the past several years, the social and economic 
needs of the Nation's and its members continue to grow. This increased 
need is particularly acute in the area of housing.
IV. The Housing Challenges in Indian Country and for the CNO
    The challenges to providing quality, affordable housing in Indian 
Country generally and within the CNO specifically stem mostly from the 
broader overriding economic realities that occur in tribal communities. 
While the country in general has experienced an economic downturn and 
slow recovery over the past several years, this trend is greatly 
magnified in tribal communities. Often there is a lack of basic 
infrastructure and employment opportunities. These employment and 
infrastructure challenges exacerbate the housing situation in Indian 
Country. As countless other witnesses have testified at hearings such 
as this has historically been the case at the national level, Native 
Americans face some of the worst housing and living conditions in the 
country, and the availability of affordable, adequate, safe housing in 
Indian Country falls far below that of the general U.S. population.
    The housing needs of members of the CNO, especially given the large 
size and breadth of its population, reflect the great need across 
Indian Country. However, because there are also many tribal members 
from other tribes across the country living within the CNO's service 
area, there are also unique challenges for the HACNO, as shown by the 
following figures for Fiscal Year 2015:

  <bullet> Nearly seventeen percent (17 percent) of the American 
        Indian/Alaska Native (AIAN) population living within the CNO's 
        service are tribal members from other tribes.

  <bullet> Approximately 10,628 households within the CNO's service 
        area are considered low-income, meaning they have annual 
        incomes of less than 80 percent of the national median annual 
        income. Of those households, an astounding 29.7 percent earn 
        only between 30 percent and 50 percent of the national median 
        annual income, and even worse, 29.8 percent earn less than 30 
        percent of the national median annual income.

  <bullet> Approximately 1,505 AIAN households within the CNO's service 
        area are overcrowded or lack a kitchen or plumbing.

  <bullet> Of the AIAN households within the CNO's service area, 2,086 
        households have a house cost burden greater than 50 percent of 
        their annual income.

  <bullet> In starkest terms, during this fiscal year the HACNO has a 
        shortfall of 9,995 low-income units.

    In sum, there is a severe housing shortage in our service area's 
tribal communities, resulting in overcrowded conditions. Many of the 
homes that do exist lack basic amenities that most Americans take for 
granted, such as full kitchens and plumbing, and even then many of the 
existing homes are in need of substantial repairs.
    As shown by the low-income numbers above that persist within our 
tribal communities, the HACNO (and more generally, the CNO itself) 
understands that, in order to address acute housing needs, it is 
necessary to take a holistic approach that addresses the poverty cycle 
more generally to make our tribal members and other constituents that 
we serve self-sufficient--this is how we move from homelessness to 
homeownership. And that is why the HACNO views its mission from a 
higher level with two prongs, one to address the lack of affordable 
housing and the other to address the poverty cycle that produces and 
reinforces such a lack of housing. The CNO and its HACNO truly believe 
that, to paraphrase a metaphor, although it may be necessary in the 
short run to give a man a fish to eat today, it is better to teach him 
how to fish so that in the long run he can eat for a lifetime. In order 
to pay a mortgage and become a homeowner, a person first needs a job to 
earn income, and that requires education, training, and career 
development. Like the partnerships laid out below that we use to 
address home financing with a variety of loanassistance products, we 
likewise partner with other educational and social programs provided by 
the CNO as well as by the federal government and other local and tribal 
governments to build the whole person in a variety of ways. The support 
we provide through NAHASDA funding and related programs is one of the 
critical pieces to building that whole person.
V. Background on Indian Housing Legislation and Administration, 
        Culminating with the Native American Housing Assistance and 
        Self-
        Determination Act (NAHASDA)
    Prior to the NAHASDA, housing assistance for Native American tribes 
and Alaska Natives was provided by various programs under the Housing 
Act of 1937 and other legislation. While these programs provided a 
broad range of assistance, they were administratively cumbersome and 
ineffective. They required separate applications and program 
administration, had different eligibility requirements, and were 
characterized by micro-management and detailed one-size-fitsall 
mandates. The programs were merely an extension of generic and often 
urban-oriented housing programs, failing to recognize the unique 
social, cultural, and economic needs of Native American communities.
    In 1960, in the aftermath of the destruction of Indian homes in 
California by fire, the Bureau of Indian Affairs requested that the 
Department of Housing and Urban Development (``HUD'') address Indian 
housing needs. In 1961, two major events changed the Indian housing 
landscape. First, the Public Housing Administration (PHA, HUD's 
predecessor) recognized tribal governments as local governing bodies 
that could establish Indian housing authorities (IHA) under tribal law 
by approving a tribal ordinance. Second, PHA also determined that 
states could establish IHAs in cases where a tribal government was not 
federally recognized but exercised all necessary powers. Soon after, 
the self-help or mutual help concept took hold and was based on the 
idea that a homebuyer would contribute land, material, or labor 
(``sweat equity'') towards the purchase of a home. In December 1962, 
PHA announced the first mutual help housing program, and in 1964, the 
San Carlos Apache IHA launched the first mutual help project. Indian 
homes were developed under this program known as ``Old Mutual Help'' 
until 1976.
    In the early 1970s, there were high expectations for the Federal 
Government to work with tribes and IHAs to satisfy national Indian 
housing goals and to address the reality of inadequate management 
systems. In 1971, the Government Accounting Office (GAO) issued a 
Congressional report on Indian housing that recommended a national 
Indian housing policy to stimulate agency coordination and accelerate 
the completion of projects. In 1984 HUD formally created the Office of 
Indian Housing (OIH) with its own staff to specifically oversee the 
development and management of Indian housing programs.
    In 1990, Congress established the National Commission on American 
Indian, Alaska Native, and Native Hawaiian Housing, which two years 
later submitted to Congress a national blueprint plan for Indian 
housing. On October 1, 1993, the HUD Office of Indian Housing (OIH) at 
HUD Headquarters in Washington, D.C. and the Regional Office of Indian 
Programs (OIPs) became the Office of Native American Programs (ONAP).
    In 1996, Congress passed the Native American Housing Assistance and 
Self-Determination Act (``NAHASDA'') to provide federal statutory 
authority to address the above-mentioned housing disparities in Indian 
Country. The NAHASDA is the cornerstone for providing housing 
assistance to low-income Native American families on Indian 
reservations, in Alaska Native villages, and on native Hawaiian home 
lands. Since the passage of the NAHASDA in 1996 and its funding and 
implementation in 1998, the Indian Housing Block Grant (IHBG), the 
primary funding component of the NAHASDA, has been the single largest 
source of funding for housing for Native American communities and in 
Alaska Native villages. The NAHASDA also includes the Title VI loan 
guarantee program, which enables tribal members to more easily access 
home loans. Administered by HUD, the NAHASDA specifies a wide range of 
activities are that are eligible for funding. These activities include 
but are not limited to down-payment assistance, property acquisition, 
new construction, safety programs, planning and administration, and 
housing rehabilitation. Not only do IHBG funds support new housing 
development, acquisition, rehabilitation, and other housing services 
that are critical for tribal communities; they cover essential planning 
and operating expenses for tribal housing programs. A significant 
portion of IHBG funds are required for planning, administration, 
housing management, and services. Without this critical federal 
funding, many tribal housing authorities would be unable to operate.
    While some members of Congress are now focusing on the unexpended 
funds in the NAHASDA block grant accounts, and mistakenly conclude that 
the program is overfunded. In fact, despite the positive developments 
in federal law and the impact of the NAHASDA, the funding it provides 
is plainly and simply insufficient to meet the existing and, in fact, 
growing housing need in our tribal communities.
VI. Innovations and Examples from the Housing Authority of the Choctaw 
        Nation of Oklahoma
    Out of sheer necessity and in the interest of promoting tribal 
self-determination and selfgovernance, tribes across the nation have 
begun developing innovative programs that complement the NAHASDA 
programs in order to meet the tremendous housing backlog in Indian 
Country. The HACNO has been at the forefront of these innovations in 
Indian Country, in order to address the housing needs not just of our 
members but of Native American tribal members from across the country.
a. United States Housing and Urban Development Section 184 Indian Home 
        Loan Guarantee Program & NAHASDA Title VI Housing Activities 
        Loan Guarantee Program
    The Section 184 Loan Guarantee Program was created by the Housing 
and Community Development Act of 1992 to address the lack of mortgage 
lending in Indian Country. The HUD Section 184 program is a mortgage 
loan product designed to resemble a conventional, or private, housing 
loan program. There are no income limits for the Section 184 program. 
Local lenders become registered with the program and as such the 
federal government guarantees up to 100 percent of the home loans 
provided by such lenders to tribal members. Initially, the program 
gained acceptance in areas such as Oklahoma and Alaska, where much of 
the property in Indian areas has passed out of trust status and into 
``fee'' status, meaning that the Federal Government no longer holds 
title to the individual parcel for the benefit of the tribe or the 
individual tribal member. Over time, the program has gained some 
traction on trust lands. Because the Section 184 Indian Home Loan 
program is guaranteed by the federal government, the program has 
provided much needed access to capital to many individual Natives that 
might otherwise find home financing difficult. The Section 184 program 
is the most successful Indian Country mortgage program. However, it 
should be noted that fewer than 20 percent of the Section 184 loans 
made to tribal members have been made on tribal trust or individual 
allotment land. More than half of the Section 184 loans have been made 
in Alaska and Oklahoma and because of the unique non-reservation system 
of land tenure for most Indian and Alaska Native groups in those 
states, nearly all of those loans were made for homes on fee simple 
land rather than trust land.
    In addition to the Section 184 program, under Title VI of the 
NAHASDA, HUD is authorized to guarantee notes or other obligations 
issued by Indian tribes, or tribal housing entities, if approved by the 
tribe, for the purpose of financing affordable housing activities as 
described in Section 202 of the NAHASDA. Eligible borrowers must be a 
tribe or a tribal housing entity that is an IHBG program recipient. 
IHBG funds may be used as security for the guarantee or other 
obligation. The objectives of the program are to enhance the 
development of affordable housing activities, increase access to 
capital to further economic growth, and encourage the participation, in 
the financing of tribal housing programs, of financial institutions 
that do not normally serve tribal areas.
b. Choctaw Home Finance Services: On the Path from Self-Determination 
        to Self-Sustainability through Nationwide Direct and Leveraged 
        Home Lending in 
        Indian Country
    Tribes are increasingly exploring innovative ways to utilize the 
NAHASDA grant funds, combined with tribal funds and other resources, to 
maximize housing project outputs. The passage of the NAHASDA in 1996 
and its funding in 1998, as well as other complementary Indian housing 
programs, have spurred the HACNO to creatively partner with lenders or 
utilize existing funds to enhance the effectiveness, efficiency, and 
success of housing projects. There is no greater example of such 
creativity in Indian Country than the HACNO's flagship program for home 
finance services offered through the Choctaw Home Finance Corporation.
    The Choctaw Home Finance Corporation (CHFC) was incorporated in 
2002 as a 501(c)(3) not-for-profit corporation to be the lending 
institution for the Choctaw Nation's Home Finance Program activities. 
The CHFC is also a certified Community Development Financial 
Institution (CDFI) through the U.S. Department of Treasury, meaning the 
federal government recognizes it as a financial institution working in 
underserved and economically-distressed markets that are often times 
not served by other traditional financial institutions. The CDFI 
certification enables the CHFC to access financial and technical award 
assistance through such things as the Native American CDFI Assistance 
Program, among others.
    The CHFC is dedicated to successful private homeownership by 
offering affordable mortgage loans and counseling services to Native 
American families nationwide through its Home Finance Program, with a 
particular emphasis on serving low-income families who likely would not 
otherwise be able to own a home of their own. The Home Finance Program 
provides assistance through both direct lending as well as through the 
leveraging of funds with lending partners to increase the number of 
potential home loans throughout the country. (Leveraging funds is 
simply investing with borrowed money in a way that multiplies potential 
gains). The Home Finance Program has assisted not just members of the 
CNO but Native American families throughout Indian Country with over 
$45,000,000 in direct loans for homeownership and down payment/closing 
cost assistance. The Home Finance Program also has leveraged just under 
$70,000,000 through participating lending partners who provide 
mortgages as part of government guarantee programs such as the Native 
American Section 184, Federal Housing Administration (FHA), Veterans 
Administration (VA), and U.S. Department of Agriculture Rural 
Development home loan programs. The private lending partners that CHFC 
has worked with include Wells Fargo, First United Bank, First Mortgage 
Company, First American Mortgage, Colonial Mortgage, Bank 2, Principal 
Mortgage Company, Arvest Bank, Gateway Mortgage, First Bank, BancFirst, 
Bank of Oklahoma, and Equity Bank.
    The CHFC has a number of loan products available to meet the 
variety of financing needs of the families we serve. These products 
include loans for purchasing, refinancing, construction, improvements, 
and energy efficiency upgrades. One of these loan products, a direct 
loan to purchase a new home or refinance their current home at a more 
affordable rate and/or term, helps families receive an affordable loan 
with manageable fees. It also includes extremely professional guidance 
by a staff whose mission is to enhance the lives of all members through 
opportunities designed to develop healthy, successful and productive 
lifestyles.
    Another loan product is a progressively subsidized homebuyer 
construction and finance service specifically for our low-income Native 
American families. The interest rate and terms are specific to low-
income family needs, and the construction service is extremely valuable 
to those who need the added construction support from trained 
construction professionals to make informed decisions and get the most 
out of the amount they qualify for.
    The CHFC also provides small, affordable streamline loans for home 
improvement, rehabilitation and/or energy efficiency upgrades. These 
loans help with necessary repairs to improve living conditions and 
property values, and also help with energy efficiency that results in 
lower utility payments, thereby freeing up more disposable income.
    The CHFC closes on average 100 loans a year for Native American 
mortgages and down payment assistance. Additionally we leverage an 
average of 85 loans per year with our private lending partners. CHFC 
manages a loan portfolio of over $23,000,000.
    The Home Finance Program is designed to function as a revolving 
loan fund. Funds are loaned out to the Native American participant and 
paid back in the form of principal and interest payments. The funds are 
then loaned back out to other Native American participants. There is a 
multiplier effect at work within the Program--the more loans made, the 
more principal and interest is repaid and those funds are then used to 
provide even more loans. This truly creates a self-sustaining service 
that sets the HACNO and its program participants on the path to self-
sufficiency.
    As a HUD-approved counseling agency, the CHFC also offers homeowner 
counseling services. Prior to extending a loan, each borrower is 
required to complete a homebuyer counseling session that provides 
education and information about the responsibilities and commitments 
required to be a successful homeowner. These sessions cover 
understanding, establishing, and maintaining good credit; personal 
financial planning and budgeting; and counseling to assist tribal 
members in becoming mortgage-ready. It prepares them for the reality of 
homeownership as to the necessities of paying for a mortgage, 
insurance, taxes and maintenance expenses. CHFC also provides post-loan 
counseling, include ongoing individual counseling as needed to develop 
the skills necessary to become a successful homeowner. The counseling 
and education that the Home Finance Program services provide help its 
Native American beneficiaries become more knowledgeable, less likely to 
become victims of predatory lending practices, and more likely to 
successfully manage their personal finances to become responsible 
homeowners. These services are a critical tactic in our strategy to 
break the cycle of poverty for our member families. They empower the 
members to understand their home as an asset they have invested in that 
not only creates wealth that can be transferred from one generation to 
another, it is an asset that they can use throughout their life as a 
financial tool that helps them achieve other goals like higher 
education, entrepreneurial investments, large purchases such as 
vehicles, and debt consolidation and management, thereby preserving 
wealth they've accumulated through their earnings. We serve an average 
of 400 individuals per year through our counseling services.
    The benefits of the CHFC Home Finance Program extend well beyond 
just the Native American program participants, into their surrounding 
communities. Furthermore, the CHFC provides opportunities for Choctaw 
tribal members and others to attain home ownership nationwide by 
partnering with mortgage companies that offer Section 184, FHA, VA, 
USDA Rural Development, and even conventional loans, well beyond our 
service area in southeastern Oklahoma. The tribal members to whom we 
extend financing services--either directly or through our private 
lending partners--are predominantly located in the states of Oklahoma, 
Texas, California, Oregon, Washington, Arkansas, and Colorado, but also 
in many others, and these members add to the local taxes bases by 
paying annual property taxes. In the Choctaw Nation's ten and a half 
(10\1/2\) county service area in southeastern Oklahoma alone, over 
$100,000 was added to local real property tax bases in 2014 by the 
tribal members we serve. This too has had a multiplier effect--an 
average of 7.5 jobs were created or sustained through each loan closing 
in the employment of appraisers, surveyors, title companies, and 
attorney services, totaling 855 new jobs annually. An even greater 
multiplier effect can be seen throughout the country, as the 
partnership of the CHFC with lenders in states that do not have tribes 
with their own Section 184 or similar Indian home loan guarantee 
programs means that the CHFC's leveraging of monies from such programs 
can extend those programs' effects to members in those states and 
likewise add to the their local tax bases, increase employment 
opportunities, and have other positive effects. By doing so, the CNOs 
positive effects are felt well beyond its service area in southeastern 
Oklahoma. For example, there are approximately 20,000 CNO tribal 
members living in the State of Texas, making it the largest tribal 
population in that state, and the Home Finance Program assistance 
services provided to those members is second only to Oklahoma.
    These innovations and successes by the HACNO point to the effective 
good that can be done through federal Indian housing programs. They 
also point to reasons why Congress should timely reauthorize the 
NAHASDA this fiscal year.
VII. Congress Should Act Swiftly to Approve the Reauthorization of the 
        Native American Housing Assistance and Self-Determination Act, 
        While Fully Supporting the Negotiated Rulemaking Process for 
        Its 
        Implementation
    Congress enacted NAHASDA in 1996, establishing the IHBG program for 
the benefit of American Indian and Alaska Native groups. The main goals 
of the bill were explained by one of its chief sponsors, Rep. Rick 
Lazio:

  <bullet> Affirm tribal self-determination by giving tribes the 
        ability and responsibility to strategically plan their own 
        communities' culturally-relevant development.

  <bullet> Provide the maximum amount of flexibility in the use of 
        housing dollars, within strict accountability standards.

  <bullet> Allow for innovation and local problem-solving capabilities 
        that are crucial to the success of any community-based 
        strategy.

  <bullet> Avoid over-burdening tribes and housing authorities with 
        excessive regulation.

    The NAHASDA was last reauthorized in 2008 when Congress again 
reaffirmed the foregoing important purposes to be served by the 
legislation. That reauthorization expired on September 30, 2013.
    Congress must quickly reauthorize the NAHASDA. Without the NAHASDA, 
it is not likely that any of the success stories from the HACNO 
discussed above, or from many other tribal housing authorities across 
the country, would have been achieved.
a. Negotiated Rulemaking Process: Keeping the Government-To-Government 
        Relationship
    In accordance with section 106 of NAHASDA, HUD originally developed 
the regulations for implementing the Indian Housing Block Grant with 
active tribal participation and using the procedures of the Negotiated 
Rulemaking Act of 1996, 5 U.S.C.  561-570. The NAHASDA reauthorization 
legislation of 2008 amended section 106 of the NAHASDA to require HUD 
to initiate negotiated rulemaking. In accordance with that statutory 
directive, HUD provided notice in the Federal Register establishing the 
NAHASDA Reauthorization Act Negotiated Rulemaking Committee (``Neg-Reg 
Committee'') and asked for tribal nominations to serve on the 
Committee. The final Committee consisted of 25 tribal members and 2 HUD 
representatives, including tribal representatives from every region of 
the country, state-recognized tribal representatives whose tribes are 
eligible for the NAHASDA funding, and the Assistant Secretary for 
Public and Indian Housing and the Deputy Assistant Secretary for Native 
American Programs. Six negotiated rulemaking sessions were held to 
achieve a final rule for the implementation of the 2008 NAHASDA 
reauthorization amendments.
    Probably the most important issue tackled through negotiated 
rulemaking has been the development of the formula by which tribes are 
allocated funds under the IHBG. That formula and the negotiated 
rulemaking process used to achieve it are the result of countless 
meetings and exchanges among tribal leaders and federal officials. A 
carefully-constructed balance of competing interests and ideals has 
been reached. The formula serves the diverse tribal communities 
affected and tribal leaders worked hard and long with federal officials 
to achieve that balance. Key to that formula's effectiveness is the 
fact that it uses U.S. Census data to take into account the need of 
every tribal recipient of the NAHASDA block grant funding. Any 
necessary changes to that allocation formula or to any other IHBG 
regulation should be subjected to the same negotiated rulemaking 
process.
    Within the reauthorization of the NAHASDA, it is not just incumbent 
upon, but morally, historically, and politically imperative that 
Congress refrain from statutorily changing features of the IHBG program 
funding distribution formula. Rather, those changes, if any, should be 
left to the tribes and the federal government to address within the 
context of the negotiated rulemaking process. This process has not only 
been used to effectively implement the NAHASDA since its inception, but 
it is also an irreplaceable component to achieving the original 
purposes of the NAHASDA set out above.
    An issue currently being addressed by the Formula Neg-Reg Committee 
convened last year is the population data set to be used in the 
formula. After annual appropriations bills are enacted, the U.S. 
Department of Housing and Urban Development (HUD) Office of Native 
American Programs (ONAP) applies the IHBG formula to determine tribal 
distributions. HUD currently uses data from the most recent U.S. 
Decennial Census, projected forward to the present year using birth and 
death rates, to determine the population figures for the Need component 
of the IHBG allocation formula.
    Last year, HUD planned to replace its use of U.S. Decennial Census 
figures in the IHBG formula with data from the Census Bureau's annual 
American Community Survey (ACS). The ACS is an ongoing nationwide 
statistical survey conducted by the U.S. Census that samples a 
percentage of the U.S. population on a smaller scale and compiles 
information every year, allowing for more up-to-date reporting of data 
than the Decennial Census. However, any shift in the data source likely 
will cause shifts in funding. Based on projected effects, some NAHASDA 
funding recipients also have questioned the ability of the ACS to 
accurately capture tribal enrollment information due to alleged issues 
with sampling, response, and inclusion rates.
    The Formula Neg-Reg Committee that convened last year researched 
and discussed these data set issues and put forward a unanimous 
proposal to address it. Under the proposal:

  <bullet> Use of U.S. Census data will continue through the FY 2017 
        allocation.

  <bullet> A study group within the current Formula Neg-Reg Committee 
        is carrying out a 12-month project to research relevant data 
        sources, including the ACS and others, and how each may be used 
        or modified for use in the IHBG allocation formula. Their 
        research will seek to find a nationally-applicable source that 
        optimally balances accurate assessment of actual needs, equity, 
        minimizing disruption of tribal housing programs, practicality 
        (including costs of implementation), and respect for tribal 
        sovereignty.

  <bullet> The Formula Neg-Reg Committee will then review the study 
        group's findings to consider an alternate data source. Any new 
        source would not be implemented until the FY 2018 allocation.

  <bullet> Finally, when a new data source is selected, the impact it 
        causes upon implementation (whether it be a gain or loss in 
        funding) will be spread over time (all tribes would still be 
        subject to any proportional increase or decrease in funding 
        resulting from the overall level of congressional 
        appropriations, or funding shifts caused by the ongoing annual 
        changes in the demographic data). This proposed regulatory 
        funding formula mechanism is deigned to function as a 
        volatility control on individual tribal funding levels 
        resulting from utilization of a new data source.

    The CNO encourages the Administration and Congress to allow the 
Formula Neg-Reg Committee to conclude its review of potential data sets 
for use within the IHBG formula and not legislatively address this 
issue, as S. 710 rightly does not attempt to do. If the Neg-Reg 
Committee determines an alternative data set to be better than the ACS, 
based on the criteria above, then use of such data within the IHBG 
formula should be implemented by regulation. If the Neg-Reg Committee 
is unable to find a better alternative data set, then ACS should be 
used as originally planned by HUD.
    While no population demographic data sets are perfect, the U.S. 
Decennial Census data currently used and the proposed ACS are the most 
accurate and reliable data sets available that are uniformly gathered 
nationally by an independent third party. The ACS makes up for the 
normally reduced sample sizes used in small populations, similar to 
many Native American and Alaska Native communities, by compiling 
estimates over several years, and according to information presented to 
the Formula Neg-Reg Committee by a Census Bureau representative, in 
these particular communities they actually increase the sample size of 
the surveys.
    According to the U.S. Census, information from the ACS survey 
generates data that helps determine how more than $400 billion in 
federal and state funds are distributed each year. ACS data has been 
deemed accurate and reliable enough to support, among things, the 
Indian Health Care Improvement Act and the Native American Programs 
Act, as well other laws affecting Indian Country, such as the Civil 
Rights Act, the Veterans Benefits Improvement Act, Johnson O'Malley and 
the Workforce Investment Act. In fact, last year tribal leaders in the 
National Congress of American Indians adopted a resolution recognizing 
U.S. Census Bureau data as the most accurate data source for the 
Johnson O'Malley AIAN target population count.
    Any attempt to require tribes and TDHEs who receive IHBG funding to 
collect and submit their own survey data of the AIAN populations they 
serve would be fraught with additional problems that likely will 
outweigh any benefit: (i) the financial burden of collecting such 
information could be enormous and shifted entirely to tribes; (ii) many 
tribes will not have the internal administrative capacity, expertise, 
or manpower to carry out their own data collections; and (iii) many 
tribes and TDHEs serve not only their own tribal members but other 
American Indians and Alaska Natives within their service areas from 
whom no more accurate data is likely to be gathered.
    Rather than completely scrapping use of ACS data even if a better 
data set is not recommended by the Formula Neg-Reg Committee, the CNO 
would suggest that HUD and the U.S. Census Bureau collaborate with 
tribes to consider ways to improve ACS implementation, and thereby 
improve its accuracy. As an example, in addition to asking for racial 
and ethnic identification, the survey also could request the tribal 
affiliation of those who identify as AIAN. Improving ACS 
implementation, rather than reinventing the data set wheel, is the best 
and most cost effective path to follow if the Formula Neg-Reg Committee 
does not find a better alternative.
    The reason the negotiated rulemaking process generally, and the 
funding formula developed through that process in particular, must be 
kept in place is clear: the federal government has long since (and 
correctly) acknowledged that tribal representatives are the best 
decision-makers for policy choices that affect tribal communities, and 
even though the federal government has a trust responsibility towards 
tribes, that responsibility is best carried out by encouraging and 
supporting the government-to-government relationship between tribes and 
the federal government. That is exactly what the negotiated rulemaking 
process does--it allows representatives from tribes and tribal housing 
authorities to engage one another over the programmatic rules that 
govern their day-to-day operations, with federal representatives at the 
table to provide input, but most importantly, to listen and incorporate 
the tribal input into the final rule. This is exactly the type of 
scenario contemplated by Rep. Lazio and other original sponsors of 
NAHASDA legislation, because the negotiated rulemaking process without 
a doubt enables tribes to plan their community development, provides 
flexibility in the expenditure of resources while maintaining 
accountability for the good of all of Indian Country, encourages and 
spreads innovation among tribal representatives, and avoids unnecessary 
and irrelevant regulation.
    With the foregoing in mind, the timely reauthorization of the 
NAHASDA, with the allocation formula negotiated rulemaking in place to 
address any necessary substantive changes, should be one of Congress's 
top priorities before the end of this fiscal year.
VIII. Possible Refinements to the NAHASDA Reauthorization Act of 2015
    NAHASDA has undoubtedly improved the housing situation in Indian 
Country. However, like any national legislation aimed at addressing 
chronic and overarching problems in Indian Country, the NAHASDA 
Reauthorization Act of 2015 can be refined slightly for better results. 
From my perspective as a stakeholder responsible for executing delivery 
of services and overall grant management I respectfully offer the 
following suggested refinement for your consideration.
    Section 301, Effect of Undisbursed Block Grant Amounts on Annual 
Allocations, reallocates to other IHBG recipients the excess of 
undisbursed block grants for a recipient if the amount in HUD's line of 
credit control system is greater than 3 times the formula allocation 
the recipient would otherwise receive for that fiscal year. This 
provision, although included with the right intent, should be clarified 
to make explicit that the statute is referencing the sum of the 
recipient's last three years of IHBG grant awards, in order to best 
protect the recipient from unforeseeable consequences in the event of 
the need for an overall appropriation reduction in any particular year. 
Such an event is beyond the control of those responsible for planning, 
managing, and timely execution of the delivery of services to ensure 
drawdown rates are within identified thresholds. Using the sum of the 
previous three years' grant allocation amount is based on known 
variables that ensure accountability without the chance of punitive 
action for circumstances beyond the control of the recipient. Further, 
this language creates a mechanism that adjusts the amount annually if 
the overall appropriation goes up or down. It also provides adequate 
time to recalibrate drawdown rates.
IX. Conclusion
    Thank you Chairman Barrasso, Vice Chairman Tester, and members of 
the Senate Committee on Indian Affairs for allowing me to testify here 
today regarding S. 710, the Native American Housing Assistance and 
Self-Determination Reauthorization Act of 2015. Your continued support 
of our efforts, including a speedy reauthorization of NAHASDA, is truly 
appreciated, and I and my staff at the Housing Authority of the Choctaw 
Nation of Oklahoma stand ready to assist you in any way that we can.
    This concludes my testimony. I would be glad to answer any 
questions you may have.

    The Chairman. Thank you, Mr. Sossamon.
    We will start with Senator Lankford.
    Senator Lankford. Thank all of you for your preparation and 
excellent testimony. That were all written out in advance and 
all your testimony as well.
    Mr. Cooper, 16 years as Executive Director of the Housing 
Authority of the Cherokee Nation, and now you have a national 
focus as well, so you are bringing a couple different lenses. I 
know today you represent the national focus as well.
    Let me ask a question from a national look. Where do we 
find success? The housing issues have multiplied all over the 
Nation and have been a bad situation for a long time. Where do 
we find success in this that we can use as models or examples? 
Where would you point and say this is working well and why?
    Mr. Cooper. I think there are a lot places you can look to 
find some success as Rusell mentioned. Russell has done a lot 
of things down in his area, in the Choctaw Nation. I think we 
can look at and go to several different parts of the Country to 
find that.
    That is one of the key factors behind NAHASDA, the self-
determination piece. It allows folks to determine what the best 
needs are for their area.
    Senator Lankford. Give me a couple examples of that. What 
have you seen? I know there is not a one size fits all, we have 
hundreds of tribes and there is uniqueness in each. Are you 
finding any trends that say when this occurs, it seems to be 
more successful in housing?
    Mr. Cooper. Earlier this year, Chairman Barrasso and this 
Committee had a hearing on leveraging. That has seemed to make 
a huge difference on it. Several of us do it in Oklahoma, it 
has worked well in the northwest, it has worked for our folks 
in Senator Murkowski's State of Alaska and for a lot of other 
places throughout the Country. It is the ability to leverage 
our Federal NAHASDA dollars with Section 183 loan dollars, with 
ICDBG dollars, and tax credits, for example, are another, low 
income housing tax credits where we can put several different 
pieces together and develop a housing program that meets our 
needs.
    One of the things we see in this bill, for instance, the 
section that deals with the environmental review component. 
Before, if we and our members had four different pieces, we 
have to do four different environmentals. If you put other 
sources of funding with that, you put stuff on top of that.
    Most of our and our members' time was spent doing 
environmentals rather than getting services out to our folks.
    Whenever we are able to leverage funds, whenever we have 
the ability to do that, I think that is probably one of the 
best things I can think of that really allows our members to do 
other things.
    Senator Lankford. How do you define success in the housing? 
When you deal with any tribe, with any entity, how do you know 
a program is successful?
    Mr. Cooper. Whenever we are able to help our Indian 
families. As Chairwoman Diver mentioned, you do not hear a lot, 
and we do not have an issue with homelessness in Indian Country 
as the term ``homelessness'' exists for public housing or other 
things.
    Our issue in Indian Country is with overcrowding and 
several families living under the same roof. We do not kick our 
people out on the street. Families take their folks in.
    Senator Lankford. You take care of your folks.
    Mr. Cooper. We take care of our folks.
    Senator Lankford. Mr. Sossamon, let me ask you a quick 
question. I have one minute left.
    You spent a lot of time both in your written testimony and 
your oral testimony talking about the home loan finance 
corporation you have set up and the shared funds, and getting 
people into home ownership. How has that worked? Why did that 
end up being a focus of the Choctaw Nation to head in that 
direction?
    Obviously that was an intentional decision. There is a lot 
of paperwork involved to do that. Why and what have you seen as 
a result?
    Mr. Cooper. It allows us to utilize those funds time and 
time again because as they are loaned out, they come back in 
and can be used again. At some point, it won't require 
additional new investment dollars; it will become a self-
sustaining, revolving fund that not only is available to meet 
the mortgage needs but will cover the operational expense to 
provide the program.
    Also, it works with our member and empowers them because 
they qualify, each member individually qualifies for a certain 
amount based on their income and their situation. If they 
cannot qualify, we provide counseling and education to them to 
point out exactly what the barriers are in their circumstance 
and provide them information and guidance they need to overcome 
the barriers they are experiencing.
    Once they have overcome those barriers, and I have seen it 
many times, they overcome those barriers and they have that 
feeling of success, then they purchase that home and going 
through the process of purchasing or having one constructed, 
knowing they have earned the ability to do that makes them 
understand more the value of that home.
    Senator Lankford. Thank you.
    Mr. Chairman, I yield back.
    The Chairman. Thank you, Senator Lankford.
    Senator Tester.
    Senator Tester. Thank you, Mr. Chairman.
    This is a question for Chairwoman Diver. We have been 
trying to break down silos and have been somewhat successful 
between IHS and VA but still have a ways to go.
    When it comes to housing, you have silos with housing, 
veterans services, and human services. How successful have you 
been to break down those silos, number one?
    Ms. Diver. Fairly well. One of the things that is working 
for us in terms of supportive housing is that we use our 
clinical facilities and our self-governed medical facilities 
with integrated social services and behavioral health to 
provide the case management to our tenants and supportive 
housing.
    The case management portion does not have to come out of 
our NAHASDA dollars; it is funded from our public health 
department. We can bring a host of resources to the table with 
the Indian Health Service or our third party billing dollars 
that we have created ourselves to provide comprehensive case 
management.
    From behavioral health services, nutrition planning, public 
health nursing, and so forth, we then do the referrals back 
into either our own system or the VA as necessary, or any other 
community-based service.
    Senator Tester. Is there a mechanism by which you can talk 
about your successes to other tribes so they can replicate what 
you are doing to get more bang for the buck?
    Ms. Diver. I am a member of the Board of Trustees of the 
Corporation for Supportive Housing. I have been a housing 
developer and operator for about 25 years prior to becoming 
involved in tribal administration and tribal politics. I am 
also the President of the Minnesota Chippewa Tribe Finance 
Corporation.
    Through those various methods, I have come to conferences 
put on by the Housing Council. HUD has actually invited me to 
different venues to provide workshops and breakout sessions on 
the financing and service delivery development.
    A lot of it is done by people hearing about it and coming 
to visit and our sharing.
    Senator Tester. That is good.
    Have you had a chance to take a look at this bill?
    Ms. Diver. Yes, I have.
    Senator Tester. No bill is perfect, although I am sure this 
one is as close to perfect as you can get. But based on your 
quick review of it, what would you change? We won't take 
offense to it.
    Ms. Diver. It is difficult because I do not have to sit in 
your shoes.
    Senator Barrasso. Time is limited, you know.
    [Laughter.]
    Ms. Diver. I can sum it up in one word: more.
    Senator Tester. More?
    Ms. Diver. More everything; more cooperation between the 
Federal agencies. I try to bring in USDA money and the income 
guidelines through USDA are so incredibly low that I have 74 
year old elders who have Social Security and a small pension 
and they are not eligible to get help with their roof.
    They are offering them a low interest loan but they cannot 
afford debt service when they are 74 years old and living on 
$900 a month, yet they are over income.
    If some of your partner agencies could adopt some of the 
same approaches of NAHASDA and have there be block grants and 
let us identify the need and the plan to serve them, then let 
tribes put in that plan within some parameters.
    The silos, I know some tribes do not want to say that IHS 
dollars can be used for development of housing. If I have those 
funds available and there is enough to not only meet the 
critical needs of repairing the ones that are out there, but 
also perhaps there is enough money to use IHS dollars so I do 
not have to use NAHASDA and housing development.
    There are so many competing needs for every single pot of 
money we have that we are almost afraid to ask you to remove 
some of those barriers because we are afraid you will not give 
us additional funds but say, now you do not need as much here 
because you can fund it over there.
    Even though some of these are great ideas, I will admit 
sometimes we fear problem solving because we do not know if the 
alternative would be worse because it means there will be less 
resources.
    Senator Tester. I certainly appreciate your being here. I 
appreciate your perspective. I think one of the ways we can 
make sure to meet your needs is if people like you are vocal 
and talk about what is going on in the real world.
    Gary Cooper, who has a great name, I have a quick question. 
I know I am out of time but I have a quick question for you.
    Your testimony indicated NAIHC supports changes to NAHASDA 
regarding the maximum rent rule of 30 percent.
    Mr. Cooper. Yes.
    Senator Tester. This is a two-edged sword.
    Mr. Cooper. It is.
    Senator Tester. While we like tribal sovereignty and self-
governance, and we all believe in that, what tenant protections 
are there? Let me give you an example. I am not saying this 
would happen.
    Sometimes you have a tribal government that loses an 
election and they bring in a whole different clan. What 
protections do those folks have as far as their rents go, if 
this 30 percent rule isn't in there?
    Mr. Cooper. I think that is an excellent question. Off the 
top of my head, I really cannot think of what protections 
exist. I think there might be some things that we could do to 
help you with that protection.
    Senator Tester. I will just say this. We want to cut red 
tape, we want to cut excess baloney out of this and if you can 
help us make sure there is some protection for these folks in 
here, I think we can get a win-win out of this.
    Thank you very much, Mr. Cooper. Mr. Sossamon, I will leave 
others to grill you, but thank you very much for being here.
    The Chairman. Thank you very much, Vice Chairman Tester.
    Senator Franken.
    Senator Franken. Thank you, Mr. Chairman.
    Thank you, Chairwoman Karen Diver. You are a good friend 
and you do a great job representing Fond du Lac and all of 
Minnesota's tribes and bands.
    I think this is an early step towards reauthorizing NAHASDA 
and I am sure we will work this out as we go through the 
process. I look forward to working with you, Mr. Chairman and 
Vice Chairman Tester on this.
    I want to focus on something you have done, Chairwoman 
Diver, in focusing on veteran homelessness because the 
definition of homelessness in Indian Country is doubling up and 
overcrowding but with veterans there is real homelessness.
    Can you explain how allowing tribes to administer HUD-VASH 
will improve the efforts to end homelessness among our veterans 
among Native Americans?
    Ms. Diver. We were very supportive of HUD handling the VASH 
vouchers over the VA because the VA does not have a history of 
working with tribes at that level in administering programs on 
the ground.
    In fact, they signed their first MOU with IHS only like two 
years ago, so those relationships are not established. HUD is 
better about understanding self-governance and decisions 
regarding how to deliver services to our communities are best 
made in our home communities, self-determination and meeting 
the outcomes of our citizens.
    One of the key factors is understanding that tribes need to 
be able to define their own homelessness. I also have veterans 
that are at risk of homelessness. I would like to be able to 
serve them as well.
    Being able to work with HUD and submit plans from a tribal 
perspective to tell them what do our veterans look like and how 
do we serve them best is something that was very important to 
us.
    We are supportive of working with HUD. We have offered them 
commentary as they are seeking that in their rulemaking and 
look forward to them deploying those resources in June.
    Senator Franken. Let us move to the issue of overcrowding, 
which is homelessness, really, as you experience it in Indian 
Country. This creates a whole host of problems, as you wrote in 
your written testimony, for kids who are exposed to a lot of 
stuff. They may be exposed to domestic violence and drugs and 
alcohol. A 2012 report by Wilder Research found that 
overcrowding ``threatens''--this is about kids--``their 
educational success, health, mental health and personal 
development.''
    Can you comment further on how lack of quality, affordable 
housing affects outcomes in education and other areas? This is 
for anyone.
    Ms. Diver. Certainly we saw with our homeless families, as 
I mentioned in my oral testimony, changing school districts, 
what we see happening as families who will take you in and then 
the stresses of having additional people in the house, usually 
it is time limited so that gets to be a very mobile situation 
where housing is only stable for three to four months at the 
time.
    It certainly exacerbates other social ills like chemical 
dependency and violence. We actually started in some of our 
police incident reports whether or not they noted if there were 
families living in the housing and whether there was 
overcrowding conditions so we could start to make some 
statistics available, whether it was Justice money or some of 
the other sources.
    It is very noteworthy that they do tend to receive more 
police calls. We do tend to see more contact with social 
services. We do tend to see more truancy. In terms of long 
term, academic outcomes and all of the other social indicators, 
it is particularly stressful on the children and hard on the 
parents too.
    We were finding out that we were taking about 90 requests 
to change bus locations every single day for our transit 
service serving our K-12 school. They were calling on that day 
to either have their child picked up or dropped off in a 
different location.
    It was actually creating some safety concerns on the part 
of our transit department about who was going to be there to 
pick up the child, what if there was no one there, what if they 
forget and drop them off at the previous location. It did not 
get on the list. There are too many ways to list, Senator 
Franken, of the ways that does harm to children.
    Senator Franken. My time has run out but if anyone else 
would like to amplify on that, would that be okay, Mr. 
Chairman? well, thank you.
    The Chairman. Senator Heitkamp.
    Senator Heitkamp. Thank you, Mr. Chairman.
    Getting back to the point that Senator Lankford was making 
and I think Senator Tester, which is you all have been patching 
together on each one of these reservations a series of programs 
to try and expand the resource and basically leverage the 
resource.
    This really is directed at you, Mr. Cooper. When you look 
at the national organization, do you have a best practices, 
innovation kind of document that we can look at where we have 
seen amazing results through the creativity of sovereignty and 
self-determination kind of coming to the forefront saying, if 
we do it this way, things will happen.
    I think the Chairwoman had an excellent example of how you 
leverage social service resources against housing resources to 
meet needs in housing, but I am wondering if there is something 
tangible we can get hold of that we can review?
    Mr. Cooper. No, I do not think that we do have that. I 
think that is an excellent point. I know we have had this 
conversation a couple of times with folks over at ONAP because 
they also see the same and exact things we do.
    They get their Indian housing plans, they will see the best 
practice models that might be out there. If there was some way 
for us to identify them, you do bring up a good point. Maybe we 
can look at that because that would be an excellent piece to 
have, the best practices of what these folks are doing in 
different areas.
    Senator Heitkamp. I think in cooperation with HUD, you 
might be able to find some resources to actually do that. I 
think that would be extraordinarily helpful for us, recognizing 
there may be a hesitancy because as the Chairwoman talked, once 
they discover how you are leveraging dollars, they may say oh, 
stop that, that is not going to happen.
    That is not our goal here. Our goal here is to try and 
encourage some good best practices on reservations.
    I want to talk to you, Mr. Sossamon, about the work you are 
doing with mortgage financing. I had the experience of running 
the State housing finance agency when I was the attorney 
general of North Dakota.
    We worked tirelessly for four years to try and get one 
project in Indian Country that financed first-time homeowners. 
We were never able to do it because of the model of what 
happens with trust property. Obviously we are concerned about 
that.
    Is there any advice you can give us on working with the 
mortgage lenders, working with banks, things you have seen in 
your experience that could be taken to reservations about 
leveraging private funds?
    Mr. Sossamon. From my perspective, I believe it comes down 
to having good tribal laws in place on the reservation trust 
areas. In our particular area and in most of Oklahoma's Indian 
areas, we do business on fee simple lands, which are governed 
by the laws of the State. Therefore, the investors, not only 
the homebuyer investing in a home but then the private capital 
made available to loan to that homebuyer, need those laws in 
place to mitigate the risk of loss of their capital, and their 
resources and investment.
    Senator Heitkamp. I think that is an easier model than 
developing private housing that can be basically mortgage 
ready. Mr. Cooper, maybe you can help me in talking about the 
difficulty or maybe it is not true anymore, the difficulty of 
doing mortgage financing on trust land.
    Mr. Cooper. I think we still see those difficulties out 
there, if there was a provision in S. 710 that would extend 
that to a 99-year lease.
    Senator Heitkamp. Helpful.
    Mr. Cooper. That is an excellent start. That is one of 
those things that is needed for those trust properties of 
members who live on reservations. Because it is hard to get 
folks to invest in a piece of property if there is not a 
guarantee there.
    Senator Heitkamp. Many times what you are missing is the 
opportunity bring people to the community, they will look for 
those mortgage opportunities off Indian Country, probably away 
from the community and not be participating the way those 
community members would participate if they were in the 
community.
    Mr. Cooper. Absolutely.
    Senator Heitkamp. May I ask the Chairwoman if she has any 
insights on mortgage finance in Indian Country?
    Ms. Diver. We passed a foreclosure ordinance through our 
tribal courts. We work with lenders to become certified and 
Section 184, help them become familiar. We do not run into as 
many problems with having traditional mortgage banking on our 
reservation.
    Senator Heitkamp. After you did this, did you see an uptick 
in mortgages?
    Ms. Diver. Absolutely. We also see that some tribal 
members, especially if they are a blended family choosing to 
buy private land on the reservation, they also know that we are 
a market because we like to reclaim obviously pieces of our 
homeland as well.
    The lease issue, for us, with the 99-year leases, we will 
not lease to members who are not members. We will assist them 
in finding another tribal buyer or the tribe will look at 
whether or not they want to acquire it. That does not seem to 
be as big an issue for us.
    Senator Heitkamp. I think as we are looking at best 
practices, I guess I would recommend that you look at including 
a section on homeownership, not just tax credits and 
multifamily, but really looking at that all important 
homeownership that helps build communities and economies.
    Thank you all. This is such a critical issue. I really 
appreciate your testimony.
    Mr. Chairman, I appreciate so much that you are making this 
a top priority as we come into the 114th Congress.
    The Chairman. Thank you very much, Senator Heitkamp.
    Following up on that, Chairwoman Diver, it seems to me a 
lack of adequate housing can hinder a community's opportunity 
for overall economic growth. Energy development requires 
adequate infrastructure for housing policies in order to build 
and retain a work force, with housing being such a key.
    Instituting local standards for housing can be an important 
means by which a community can actually achieve its goals.
    As a tribal leader, can you explain to the Committee and 
for the record, the connection between tribally-established 
housing policies and community priorities like economic growth?
    Ms. Diver. You are absolutely right. The whole purpose of 
publicly-financed housing is to do community development, not 
just to provide a house. It is to provide wellness for 
communities in a very holistic way.
    Being in a rural community, the Fond du Lac Band is the 
second largest employer in northern Minnesota with 2,200 
employees, yet we are a tribe of 4,200. We have a hard time 
providing affordable housing for our work force, tribal and 
non-tribal.
    Right now, we are in the Duluth-Superior metropolitan 
statistical area and market rate rents actually will run higher 
than a mortgage but yet a lot of our tribal members do not 
qualify for mortgages because of credit issues and so forth.
    That is one of the focuses of what we are trying to do but 
our NAHASDA money is make people homeowner ready. That is one 
of the reasons why we have down payment assistance programs and 
things like that.
    A lack of affordable housing is not just in our area 
provided by the tribe. It is in the region. It is underfunded, 
not just for tribes, although more underfunded for tribes than 
other PHAs. It is affecting economic development upwards in 
terms of work force development and, as I said earlier, all of 
those other social stressors that come with families in crisis.
    The Chairman. Thank you.
    Mr. Cooper, government-to-government dealings, I think, is 
an important part of the Federal-tribal relationship. In 
addition to your serving on the National American Indian 
Housing Council board, you also served on a NAHASDA formula 
negotiated rulemaking.
    Mr. Cooper. Yes, Mr. Chairman.
    The Chairman. That committee was a government-to-government 
body deliberating regulations governing formula allocation. One 
of the issues the group addressed was the matter of undispersed 
funds.
    I am wondering if you could explain to the Committee how 
the government-to-government body approached this work. After 
your deliberations, what did the tribal and Federal government 
representatives resolve in terms of undispersed funds?
    Mr. Cooper. I think that is a good question if for no other 
reason than it stresses the importance of that government-to-
government piece. If this bill passes and we get to negotiated 
rulemaking on this bill, then I think there is also a chance 
maybe we can put some of those protections in place that Vice 
Chairman Tester talked about that might be needed.
    Back to your question with the undispersed funds, it is an 
issue. We sat down and discussed it. As far as the language we 
proposed, it was very close other than a few technical 
differences, mirrors exactly what you put in the bill that I 
see in front of me here today.
    Of course I am the younger person on the committee. I think 
Russell served on a few more than I, but that was my first 
experience. It is a process that does work. Everyone sits down 
at the table and we all come to a consensus, we all come to 
agreement on the final product.
    The Chairman. One of the things Senator Tester asked about 
had to do with tribal elections. I was wondering, as a tribal 
housing official, could you explain how the relationship exists 
between elected officials and housing administrators which I 
believe are governed by charters and other forms of legal 
oversight and the accountability there?
    Mr. Cooper. In a lot of places, there is that issue where 
the housing folks are also the housing department of the tribe. 
I could give a little history and Russell could probably give 
more than I ever could.
    The housing authority had to be separate. The Indian 
Housing Authority was a separate entity outside of the tribe 
prior to NAHASDA. When NAHASDA came about, the tribes could 
take over that. Either the Indian Housing Authority or the 
tribe could become the tribally-designated housing entity.
    It is kind of one of those mixed barrels. You have places 
where theoretically it could happen where elections could play 
a part and in other places, it may not have any effect on it 
but that does differ. That is really one of the ways it does.
    The Chairman. Mr. Sossamon, do you have anything you want 
to add to that?
    Mr. Sossamon. As far as the relationships, particularly at 
Choctaw, my board of commissioners are appointed by my Chief 
and confirmed by my Council. There is accountability to the 
tribal government.
    Beyond that, NAHASDA recognizes the tribe as the primary 
beneficiary of NAHASDA funds and they chose by government 
action to name the housing authority as their designated 
entity.
    If the entity is not responsive to the needs as identified 
by the elected officials of the government, they simply act and 
remove that designation and they no longer receive those funds.
    The Chairman. S. 710 provides tribes with tools to address 
their unique circumstances and meet their goals. One of the 
sections enhances tribes' leasing authority. Another section 
provides more streamlined and predictable environmental review 
processes. Another section includes tribally-designated housing 
entities as qualifying community-based development 
organizations. Another section promotes leveraging of NAHASDA 
funds.
    Can you share with the Committee how this bill will help 
tribes attract development project partners? Because it is not 
just about a house, it is about the future, economic 
development, education, health and the overall well being. And 
what impact will those partnerships have on the quality of life 
that the Choctaw Nation's citizens could enjoy?
    Mr. Sossamon. Basically, all of these provisions create a 
multitude of new options available to us to look at in every 
community and the environment in which we want to do a 
development, much like a private developer does.
    They have to have the flexibility to put together whatever 
pieces are necessary to be successful in developing in an area. 
This will allow tribal housing professionals to look at things 
more like a market type developer would.
    It gives us the flexibility to really assess what it is 
going to take in this area which may not be exactly the same as 
what it takes in this area, but previous to that, government 
programs tried to be as Mr. Cooper pointed out, cookie cutters 
and one size fits all.
    We know in the real market, that is not how it works. The 
closer we can get to operating the way the real market does, 
the more likely it is that private market investors and 
developers are going to come in and work with us.
    The Chairman. It does not appear there are any more 
questions. The hearing record will be open for two weeks. Other 
members may submit written questions.
    I want to thank all of you for being here, for your time 
and testimony today.
    The hearing is adjourned.
    [Whereupon, at 3:48 p.m., the Committee was adjourned.]
                            A P P E N D I X

    Prepared Statement of Lourdes Castro Ramirez, Principal Deputy 
 Assistant Secretary for Public and Indian Housing, U.S. Department of 
                     Housing and Urban Development
    Good Afternoon Chairman Barrasso, Vice Chairman Tester, and Members 
of the Committee. Thank you for inviting the U.S. Department of Housing 
and Urban Development (HUD) to testify on S. 710, a bill to reauthorize 
the Native American Housing Assistance and Self-Determination Act of 
1996 (NAHASDA).
    My name is Lourdes Castro Ramirez and I am the Principal Deputy 
Assistant Secretary for Public and Indian Housing (PIH) at HUD. PIH is 
responsible for the management, operation, and oversight of HUD's 
American Indian, Alaska Native, and Native Hawaiian housing programs.
    NAHASDA provides a successful approach, guided by the principles of 
self-determination and self-governance, to providing decent and 
affordable Indian housing and developing tribal economies. The Indian 
Housing Block Grant (IHBG), the largest program under NAHASDA, has 
infused almost $11.4 billion to support a range of affordable housing 
and community development activities in tribal communities since its 
inception 18 years ago.
    Over the life of the program, IHBG recipients have built or 
acquired almost 37,000 affordable housing units in Indian Country, and 
substantially rehabilitated more than 73,000. IHBG recipients also 
currently maintain more than 46,000 ``HUD units'' that were funded 
before NAHASDA was enacted.
    HUD is very pleased that the reauthorization of NAHASDA is a 
priority for this Committee. HUD strongly supports the reauthorization 
of NAHASDA because the law is essential to furthering housing 
opportunities and building sustainable communities throughout Indian 
Country.
    We are currently reviewing and analyzing S. 710 and welcome the 
opportunity to work with the Committee and staff to provide 
recommendations on several existing provisions, as well as offer 
insight on ways to further improve NAHASDA.
    Today, I would like to share with you our initial views on the 
draft bill. First I will comment on the provisions included in the 
bill, and then discuss some other concepts HUD would like to see 
reflected in the bill.
    HUD appreciates the Committee's support for addressing the needs of 
homeless veterans on reservations. HUD is actively working with the 
Department of Veterans Affairs on developing a tribal HUD-Veterans 
Affairs Supportive Housing (HUD-VASH) demonstration program as 
authorized in the Consolidated and Further Continuing Appropriations 
Act of 2015. The implementation and evaluation of this demonstration 
should help inform the discussion around how best to address the 
problem, and we look forward to sharing the results of the 
demonstration with this Committee.
    HUD also understands the desire of this Committee and IHBG 
recipients to streamline environmental reviews. We appreciate the 
Committee's attempt to address this vexing issue. As directed by Senate 
Report 113-182, HUD is working with other Federal agencies to 
coordinate and streamline environmental reviews involved in Indian 
housing development. This working group will issue a report to Congress 
with recommendations on how to streamline the current process. And 
finally, HUD is encouraged to see the Committee bill supporting the 
reauthorization of the Indian Home Loan Guarantee Program and the 
Native Hawaiian Homeownership Act.
    While we are still reviewing the bill in its entirety, I would like 
to share some initial reactions to proposed amendments to several 
sections of NAHASDA included in S. 710. First, proposed amendments to 
Section 104 would further loosen already flexible requirements 
regarding the use of program income. Currently, program income can be 
spent on any housing or housing-related activities, and is not subject 
to any other Federal requirements. HUD does not support this language 
as proposed, because it would loosen existing requirements even 
further, and would allow funds generated from the use of program income 
to be used for any purposes with no restrictions, including purposes 
wholly unrelated to housing.
    The changes proposed in Section 201 would impact the affordability 
of NAHASDA units and change the nature of a program originally targeted 
to low-income families. The bill as drafted would allow recipients to 
charge rents that exceed 30 percent of area median income with a simple 
written policy. This erodes the Department's goal of ensuring that rent 
payments remain affordable, and may significantly increase rent burdens 
on low-income Indian families. HUD believes compromise language may be 
possible that would address the need for higher rents in some 
circumstances, while protecting the long-term affordability of NAHASDA 
housing units.
    The Department is also concerned about the provision proposed in 
Section 202. The provision would authorize a de minimis exemption to 
the affordability period currently applicable for the useful life of a 
unit funded with NAHASDA funds--further diluting the affordability of 
NAHASDA programs. If the period of affordability is eliminated for 
these units, the property could be sold at a higher cost to over-income 
families shortly after the rehabilitation is complete.
    Finally, we understand there are concerns from Indian tribes 
requesting approval to exceed total development costs (TDC), and the 
desire to have additional flexibility when projects may exceed TDC. 
Under current law, IHBG recipients are able to exceed TDC by 10 percent 
without HUD approval. If recipients wish to exceed the 10 percent cap, 
under the current regulations, they may seek a variance from HUD. The 
proposed amendment would provide recipients the authority to exceed 
TDCs up to 20 percent over the TDC limit without prior HUD approval. It 
is our understanding that this language has been included to allow for 
variances caused by the use of sustainable green building practices. 
HUD supports sustainable practices. However, we need to carefully 
balance this goal with the equally important goal of preventing the 
investment of IHBG funds into a few, high-cost homes instead of 
dedicating the funds to producing more, affordable housing units.
    HUD also welcomes the opportunity to work with the Committee on 
changes to NAHASDA to reflect the following concepts:

  <bullet> Enrich the type of data reported by recipients, including 
        data on energy efficiency, construction costs, and level of 
        assistance provided to elders and veterans.

  <bullet> Strengthen insurance requirements to better protect NAHASDA 
        investments.

  <bullet> Preserve the intent of NAHASDA by ensuring that homes are 
        conveyed to families as intended.

  <bullet> Protect NAHASDA funds in emergency situations.

  <bullet> Permanently authorize refinancing in the Native Hawaiian 
        Housing Loan Guarantee Program.

    We look forward to working with the Committee and staff to refine 
S. 710 to support the goal we share of meeting the affordable housing 
needs of American Indian and Alaska Native families, and playing an 
integral part in building sustainable Indian communities. Thank you.
  Prepared Statement of Nadine Encino, Senior Operations Specialist, 
          Laguna Housing Development and Management Enterprise
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
